<html>
<title> - LESSONS FROM THE MUMBAI TERRORIST ATTACKS</title>
<body><pre>[Senate Hearing 111-581]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-581
 
       LESSONS FROM THE MUMBAI TERRORIST ATTACKS--PARTS I AND II

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         JANUARY 8 AND 28, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
49-484PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
            Christian J. Beckner, Professional Staff Member
            Deborah P. Parkinson, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                    John K. Grant, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk













                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................ 1, 29
    Senator Collins.............................................. 3, 30
    Senator McCain...............................................    47
    Senator Bennet...............................................    49

                               WITNESSES
                       Thursday, January 8, 2009

Charles E. Allen, Under Secretary for Intelligence and Analysis, 
  U.S. Department of Homeland Security...........................     5
Donald N. Van Duyn, Chief Intelligence Officer, Directorate of 
  Intelligence, National Security Branch, Federal Bureau of 
  Investigation, U.S. Department of Justice......................     8
Hon. Raymond W. Kelly, Police Commissioner, City of New York.....    11

                      Wednesday, January 28, 2009

Brian Michael Jenkins, Senior Advisor, The RAND Corporation......    32
Ashley J. Tellis, Ph.D., Senior Associate, Carnegie Endowment for 
  International Peace............................................    35
J. Alan Orlob, Vice President, Corporate Security and Loss 
  Prevention, Marriott International Lodging.....................    38
Michael L. Norton, Managing Director, Global Property Management, 
  Tishman Speyer.................................................    40

                     Alphabetical List of Witnesses

Allen, Charles E.:
    Testimony....................................................     5
    Prepared statement...........................................    61
Jenkins, Brian Michael:
    Testimony....................................................    32
    Prepared statement with an attachment........................    78
Kelly, Hon. Raymond W.:
    Testimony....................................................    11
    Prepared statement...........................................    72
Norton, Michael L.:
    Testimony....................................................    40
    Prepared statement...........................................   103
Orlob, J. Alan:
    Testimony....................................................    38
    Prepared statement with an attachment........................    96
Tellis, Ashley J., Ph.D.:
    Testimony....................................................    35
    Prepared statement...........................................    84
Van Duyn, Donald N.:
    Testimony....................................................     8
    Prepared statement...........................................    67

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Mr. Norton...................................................   113
    Mr. Orlob....................................................   111


           LESSONS FROM THE MUMBAI TERRORIST ATTACKS--PART I

                              ----------                              


                       THURSDAY, JANUARY 8, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:41 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good afternoon and welcome to this 
hearing. I thank our witnesses from the law enforcement and 
intelligence community for your presence here today for this 
hearing on lessons that we here in the United States can learn 
from the Mumbai terrorist attacks.
    As we all know, on the night of November 26, 2008, 10 
terrorists made an amphibious landing onto the jetties of 
Mumbai, India, and proceeded to carry out sophisticated, 
simultaneous, deadly attacks on multiple targets, including the 
city's main railway station, two of its most prominent hotels, 
a popular outdoor cafe, a movie theater, and a Jewish community 
center.
    Three days of siege and mayhem followed. As the world 
watched on television, these 10 terrorists paralyzed a great 
metropolis of 12 million people and murdered nearly 200 of 
them. The victims were Muslims, Hindus, Christians, Sikhs, and 
Jews. They were citizens of many nations, including six 
Americans. Senior American intelligence officials have placed 
responsibility for the attacks on Lashkar-e-Taiba (LeT), a 
terrorist group based in Pakistan.
    I know that I speak for all of my colleagues on this 
Committee and in the Senate in expressing our sympathy to the 
families and friends of the victims of these attacks and also 
to express our solidarity with the people of India and their 
government in the wake of the attack.
    I had the opportunity to travel to New Delhi just a few 
days after the Mumbai attacks and the honor of meeting with 
Prime Minister Singh, Foreign Minister Mukherjee, and National 
Security Advisor Narayanan. The Indian people and their leaders 
were understandably and justifiably angry and intent on 
demanding and achieving justice. Prime Minister Singh and his 
government have acted firmly and responsibly in response to 
this attack. The terrorists wanted to divide and radicalize 
people in India and to provoke a war with Pakistan, but India's 
government, indeed, India's people have proven stronger and 
wiser than that, while being persistent in demanding that those 
responsible for these attacks be brought to justice.
    I also had the opportunity right afterward to visit 
Islamabad, where I met with Prime Minister Gilani, General 
Kayani, and other senior officials with whom I discussed 
Lashkar-e-Taiba and the Mumbai attacks. I was encouraged that 
the democratically-elected leaders of Pakistan understand the 
threat of Islamist extremism to themselves and their neighbors 
and that the Pakistani government has taken steps to crack down 
on LeT, including abiding by the sanctions imposed last 
December at the United Nations.
    But much more is needed and quickly. It is absolutely 
imperative that Lashkar's leaders are not just detained by 
Pakistani authorities, but that they are prosecuted for the 
terrorist acts they are accused of planning and helping to 
carry out.
    The purpose of this hearing is to examine those attacks on 
Mumbai and determine what lessons can be drawn from them for 
America's homeland security.
    First, we need to understand who carried out these attacks 
in the most broad and yet also specific detail. In other words, 
what is Lashkar-e-Taiba, and what are its ideologies and 
history? What is its relationship to al-Qaeda and other 
Islamist terrorist groups? Does it threaten the United States 
in any way? What are its ties, both past and present, to the 
Pakistani army and its intelligence agency, the Directorate for 
Inter-Services Intelligence (ISI)?
    Second, we need to understand how the men who carried out 
these attacks were recruited, trained, funded, indoctrinated, 
and radicalized, the process on which the one surviving 
terrorist, Ajmal Amir, in Indian custody, has already cast some 
light. The problem of radicalization is one that this Committee 
has closely examined in the last 2\1/2\ years and one that the 
three governmental agencies represented by our three witnesses 
have also closely studied.
    It is particularly important in Pakistan, given that many 
of the attacks against the United States and our allies, both 
failed and successful, have had links to Pakistani-based 
groups, particularly Pakistani-based training camps.
    Third, we need to understand the implications of some of 
the tactics used successfully in these attacks. For example, we 
know that the attackers traveled undetected from Karachi in 
Pakistan to Mumbai by boat. What are the implications of this 
attack from the waters on our own homeland security here in the 
United States?
    We also know that leading-edge technologies were used to 
facilitate the attacks. The terrorists apparently, for 
instance, used Google Earth to surveil their targets and 
communicated with each other and with their controllers back in 
Pakistan using BlackBerrys and Skype. How does the use of such 
tools impact our own efforts to prevent terrorism here at home?
    Fourth, we need to look at the targets of this attack and 
determine whether we are doing as much as we can and should be 
doing to appropriately protect our own ``soft targets,'' a term 
generally given to facilities that are not traditionally 
subject to a high level of security, such as nuclear power 
plants and defense locations, but would include hotels, 
shopping malls, and sports arenas. While there are practical 
limits, of course, to protecting such targets in an open 
society such as ours or India's, it is imperative that we take 
smart, cost-effective security measures here in the United 
States through means such as security awareness training, 
exercises focused on soft targets, and improved information 
sharing about potential threats.
    Fifth, we need to examine how we can strengthen our 
homeland security cooperation with the government of India and 
other allied governments in the wake of this attack. Over the 
past few years, we have literally transformed America's 
relationship with India across a broad array of shared 
interests and activities. This bilateral relationship is now 
emerging as one of America's most important strategic 
partnerships in the 21st Century. I hope we are exploring ways 
in which we can cooperate to protect the citizens of both of 
these great democracies from terrorist attacks.
    When I was in New Delhi, I discussed with Prime Minister 
Singh his administration's plan to overhaul the way the Indian 
government is organized to protect homeland security in the 
wake of Mumbai. Needless to say, I hope we can find ways in 
which we can assist our Indian friends in this critical effort 
and how, in turn, they can assist us in protecting our homeland 
from terrorism.
    I am very grateful that we have as witnesses today three of 
the leading authorities in government on matters on terrorism, 
Charlie Allen from the Department of Homeland Security (DHS), 
Commissioner Ray Kelly from the New York Police Department, and 
Donald Van Duyn from the Federal Bureau of Investigation (FBI). 
Your willingness to be here today before this Committee is 
appreciated and also, I think, attests to the seriousness with 
which you and the men and women in your agencies take the 
ongoing terrorist challenge.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. As we begin a new 
year, this hearing is a sobering reminder of the continuing 
threat that terrorism poses to this Nation and to civilized 
people throughout the world.
    The consequences of the Mumbai attack reverberate 
worldwide. Six Americans were among the more than 160 victims, 
once again raising concern for the safety of our citizens at 
home and abroad. In addition to the tragic loss of life, the 
attack temporarily crippled the financial center of India, the 
world's largest democracy and a friend of the United States.
    The implicated terrorist group, LeT, has links that reach 
far beyond South Asia. In 2004, for example, two men sentenced 
for violent felonies admitted to helping members of a Virginian 
jihadist network gain entry to Lashkar training camps in 
Pakistan.
    The murderous assault on Mumbai deserves our attention 
because it raises important questions about our own plans to 
prevent, prepare for, and respond to terrorist attacks in the 
United States. Careful analysis of the tactics used, the 
targets chosen, and the effectiveness of the response will 
provide valuable insight into the strengths and weaknesses of 
our own Nation's defenses.
    The Mumbai attacks focused, as the Chairman has pointed 
out, on soft targets, like hotels, restaurants, a railway 
station, and a Jewish cultural center. And the Mumbai attackers 
used conventional, but still dreadfully lethal, weapons like 
automatic rifles and hand grenades to carry out their bloody 
mission.
    While terrorists will certainly still seek to acquire and 
use a weapon of mass destruction, the Mumbai attack underscores 
the threat posed by a few well-armed and well-trained 
individuals. It also raises the critical question of whether 
the attack may signal a shift in terrorist tactics toward 
conventional weapons and explosives used in coordinated attacks 
by small groups. Indeed, in 2007, a group of homegrown 
terrorists plotted a similar low-tech attack against Fort Dix 
in New Jersey.
    Such tactics and goals may require rethinking our standard 
response doctrines. For example, is securing a perimeter and 
waiting for specialized tactical squads the best way to deal 
with terrorists who are moving about and seeking to inflict 
maximum bloodshed? Do local and State law enforcement agencies 
need improved rapid access to building plans and prearranged 
contacts at all likely targets, from transportation hubs and 
government buildings to large shopping malls, schools, 
theaters, hotels, and restaurants? Do the Federal Government, 
State and local officials, and the private sector have 
sufficiently well-developed information sharing procedures for 
use both before and during attacks and other emergencies?
    By examining the command, control, and coordination of the 
Indian government's response as well as the adequacy of their 
equipment and training and the public information arrangements 
in place during the Mumbai attack, can we improve our own 
efforts to prevent similar attacks?
    On the diplomatic front, we clearly must redouble our 
efforts to persuade and pressure states like Pakistan that 
tolerate terrorist safe havens.
    Finally and of great interest to this Committee, we need to 
ask whether the Mumbai atrocities shed any new light on the 
nature of the violent extremist mindset and on the 
opportunities for the United States and the international 
community to work cooperatively to prevent and counter the 
process of violent radicalization.
    I commend the Chairman for convening this hearing and I 
welcome our witnesses and look forward to hearing their 
testimony on the lessons that we can draw from the attacks in 
India. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins, 
for that excellent statement.
    We will now go to the witnesses, beginning with Charlie 
Allen. After a long and extraordinary career of service to our 
Nation at the Central Intelligence Agency, Mr. Allen was good 
enough to join this new Department of Homeland Security in its 
infancy. He serves as the Chief Intelligence Officer of the 
Department and holds the title of Under Secretary for 
Intelligence and Analysis.
    Mr. Allen, thanks very much again for being with us.

     TESTIMONY OF CHARLES E. ALLEN,\1\ UNDER SECRETARY FOR 
INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Thank you, Chairman Lieberman, Ranking Member 
Collins. It is a pleasure to be here and a pleasure to be here 
with my colleagues, Don Van Duyn, with whom I worked at the 
Agency, and also it is always an honor to be with Commissioner 
Kelly.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Allen appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    I think it is important that we have this hearing, that we 
learn here in our country the lessons of Mumbai, and I think 
the three of us have probably some unique perspectives on this.
    The attacks were shocking. They were brazen. The brutality 
was, without question, some of the worst that we have seen in 
terrorism in modern times. Terrorists using fairly ordinary 
weapons wreaked great havoc and destruction. So we need to know 
what happened, how it happened, so we are better prepared to 
deal with potential attacks of a similar nature in this 
country.
    My office routinely conducts analysis on threats around the 
world to understand them, to understand how they could affect 
the homeland, and it is critical that our analysis, 
particularly in our Department, be promptly and thoroughly 
shared with our State, local, tribal, and private sector 
partners, and I will speak a little bit about that in a couple 
of moments.
    We began looking at the Mumbai just as the attacks got 
underway and then we continued to work through Thanksgiving and 
the weekend until the 72 hours passed and the terrorists were 
suppressed. What we saw there in Mumbai were members of a well-
armed and well-trained terrorist cell, as Senator Lieberman 
said, making this maritime entry to the coastal city, then 
fanning out in multiple locations and attacking targets 
including transportation, commercial, and religious facilities.
    We are reminded that delayed or disrupted plots are likely 
to resurface. Indian authorities arrested a Lashkar-e-Taiba 
operative in February 2008. He carried with him information 
suggesting Mumbai landmarks, including the Taj Mahal Hotel, had 
been targeted for surveillance, possibly meaning future 
terrorist operations. We cannot say whether the plans had been 
delayed because of something the Indian government had done or 
whether the plotters were just not ready until November, but it 
does remind us that plots can lay dormant for a long time and 
then appear at the time of the plotter's choosing.
    A heightened security posture had an impact, perhaps, on 
the timing of the attack, but the targets nonetheless remained 
in the cross-hairs of the plotters. This reminds us that we 
cannot let our guard down and we must develop sustainable ways 
to address possible credible threats. We are reminded here, of 
course, of our Twin Towers and how they were attacked in 1993 
and then again in 2001.
    We are reminded also that a determined and innovative 
adversary will take great efforts to find security 
vulnerabilities and exploit them. The Mumbai attackers were 
able to ascertain the routines and vulnerabilities of the 
security forces at the primary targets during the pre-
operational phase. They entered by water where security was the 
weakest. They thought that they could greatly increase the 
likelihood of their success if they came by sea.
    Because it is impossible to maintain heightened security 
indefinitely at all possible points, including extensive 
shorelines, we have learned that it is important to vary 
security routines and establish capabilities to surge security 
forces. We have done this very frequently in the Department. 
The Visible Intermodal Prevention and Response (VIPR) teams 
that we run have had 1,000 of those exercises over the last 
year and a half.
    We are also reminded that security must be unpredictable 
for the adversary. It needs to be predictably responsive to 
those who need to implement the measures, however. During a 
period of heightened security earlier this year, several of the 
hotels in Mumbai installed security scanning devices. According 
to open source reporting, some of those devices were not in 
operation during the attacks and all security personnel were 
not properly trained on how those devices work. This, of 
course, means that security device measures have little value 
if they are not used or the personnel who use them do not 
adequately understand how to effectively operate them.
    Thus, we are reminded that training of private sector 
security personnel and first responders is an essential element 
of securing our Nation's critical infrastructure. As many 
possible soft targets are controlled by private organizations, 
the private sector must be a full partner in efforts to protect 
the homeland.
    Also, we are reminded that thorough knowledge of the target 
can dramatically increase the effectiveness of the attack, and 
conversely, lack of similar knowledge by responders can 
significantly diminish an effective response.
    Much of the information the Mumbai attackers required to 
mount a successful attack was accessible through readily 
available sources. Hotels, restaurants, and train stations, by 
their nature, are susceptible to extensive surveillance 
activities that might not be necessarily noticed. Such 
information can give attackers significant advantage during the 
attack because they know traffic patterns and escape routes.
    We should remember that such surveillance activities by 
terrorist operatives or support personnel also represent an 
opportunity to identify and interdict terrorist operatives. The 
Department is working with the Office of the Director of 
National Intelligence (ODNI), the FBI, and our State, local, 
and city partners to establish a comprehensive Suspicious 
Activity Reporting System that will systematically identify and 
collect information regarding possible pre-attack activity.
    We are also reminded that low-tech attacks can achieve 
strategic goals and can be dramatically enhanced by technology 
enablers. The attackers were able to fend off responding forces 
just using automatic rifles, grenades, and some improvised 
explosive devices (IEDs), basically the weapons of a basic 
infantryman. They also used satellite and cell phones to 
maximize effectiveness, and they monitored press coverage of 
the attack through wireless communication devices they had 
taken from hostages to obtain up-to-date information regarding 
the actions of the Indian government rescue forces.
    We are also reminded that a response to a similar terrorist 
attack in a major U.S. urban city would be complicated and 
difficult. We saw how the chaos the attacks created magnified 
the difficulty of mounting an appropriate response. We also saw 
how essential it is to ensure that first responders are up to 
the task. They must first and foremost have adequate 
information as to the details of what is happening as well as 
to have appropriate tools to mount an effective response.
    In Mumbai, we saw attackers were able to exploit the 
initial chaos and move on to new targets while responders still 
focused on the initial targets. So from that perspective, 
preparedness training for this type of attack might not have 
prevented it. The effects could likely have been mitigated and 
reduced if authorities are well prepared and have exercised 
responses to terrorist attacks across all levels of government.
    We also are reminded that the lack of a unified command 
system can significantly hamper an effective response. In the 
homeland, we have developed the National Response Framework, 
which provides us with a unified command system to respond to 
terrorist attacks and natural disasters. This framework would 
not eliminate the chaos generated during a terrorist attack, 
but it does provide guidance on organizational roles and 
responsibilities during response and recovery operations.
    Again, we are reminded that public-private interactions are 
crucial and must be developed before an incident occurs. 
Developing those relations before an incident helps facilitate 
the flow of information during crises and may help ensure that 
the data conveyed to first responders is accurate, such as 
changes in floor plans and access routes. Within the 
Department, our Office of Infrastructure Protection manages 
many such private-public partnerships.
    We are reminded also that training exercises that integrate 
lessons learned are crucial. We do this, and we learn greatly 
from it. We did not do this prior to September 11, 2001. The 
exercises that we conduct today have been absolutely 
invaluable.
    You asked that we discuss the Department's information 
sharing with India following the attack. We certainly can do 
that, but we would respectfully request to discuss that in 
private closed session.
    But, on an information sharing basis, we have certainly 
worked very hard to get the information out to State and local 
government, working with our colleagues here in the FBI. We 
sent out threat assessments. And then on December 3, we sent 
out a more sustained and developed instruction on what we saw 
of the tactics, techniques, and procedures used by the Mumbai 
attackers. My office also published a primer for all State and 
local officials on Lashkar-e-Taiba, its history, and its modus 
operandi.
    In closing, I would say that what we have done was a very 
useful exercise. I am very pleased with the amount of 
information that we were able to get out to our partners, both 
in State, local, and the private sector. I am also pleased with 
the way we worked very closely at the National Counterterrorism 
Center (NCTC) and with our good colleagues in the FBI and our 
colleagues at the State and local government level.
    I just came from a Homeland Security Advisors Conference 
that was run here in Washington. It is clear that they believe 
that we are making the progress that we need to make in sharing 
information at the State and local level. We need to do more, 
Senator, but we have come a long way in the last couple of 
years.
    Thank you, sir.
    Chairman Lieberman. I agree on both counts. Thanks for your 
testimony. Every time you said, ``We are reminded,'' I was 
hearing it as either we drew a lesson from this, or, in fact, 
we were reminded of some things by Mumbai that we had already 
seen evidence of here. I would like to come back during the 
question and answer period and ask you to develop a few of 
those matters that we were reminded of.
    We go now to Donald Van Duyn. He came to the Federal Bureau 
of Investigation in August 2003, after 24 years of service at 
the Central Intelligence Agency. In September of last year, Mr. 
Van Duyn was appointed by Director Mueller to be the Chief 
Intelligence Officer of the FBI. In that capacity, you are here 
and we are very glad to have you here. Please proceed.

TESTIMONY OF DONALD N. VAN DUYN,\1\ CHIEF INTELLIGENCE OFFICER, 
DIRECTORATE OF INTELLIGENCE, NATIONAL SECURITY BRANCH, FEDERAL 
      BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Van Duyn. Chairman Lieberman, Senator Collins, thank 
you very much for inviting me today with my two distinguished 
colleagues to discuss the lessons learned from the recent 
terrorist attacks in Mumbai and how the FBI is working with our 
U.S. intelligence community and law enforcement partners to 
apply those lessons to protect the homeland.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Van Duyn appears in the Appendix 
on page 67.
---------------------------------------------------------------------------
    I would like to begin by briefly describing the FBI's role 
in overseas investigations in general and our response to the 
Mumbai attacks, in particular. We appreciate the Committee's 
understanding that this is an ongoing investigation with FBI 
personnel on the ground, and that our participation in it is at 
the behest of the Indian government. Because of that and the 
diplomatic sensitivities involved, there are likely to be 
questions that I cannot answer in this forum. We would be 
pleased, however, to provide additional information in a closed 
session, however.
    As advances in technology, communications, and 
transportation continue to blur international boundaries, the 
FBI is increasingly being called on to address threats and 
attacks to U.S. interests overseas. To help combat global crime 
and terrorism, we are using our network of 61 Legal Attache 
Offices to strengthen and expand our partnerships with foreign 
law enforcement and intelligence agencies around the world.
    In the event of an attack on U.S. citizens or U.S. 
interests abroad, our Legal Attache obtains approval from the 
host government and the U.S. Embassy for the FBI to provide 
investigative assistance. The appropriate FBI operational 
division then deploys personnel and equipment and runs the 
investigation. The Counterterrorism Division has the lead for 
the FBI's investigation of terrorist attacks overseas.
    To give you an idea of the scope of the FBI's presence 
abroad, on any given day, there are about 400 to 500 FBI 
personnel deployed overseas. About 60 percent of those are 
permanently assigned to the Legal Attaches while 40 percent are 
temporarily deployed to war zones, including Afghanistan and 
Iraq, and extraterritorial investigations, such as Mumbai.
    In response to the Mumbai attacks in particular, the FBI 
obtained approval from the Indian government and the U.S. 
Embassy in New Delhi to deploy personnel to assist with the 
investigation. The team, which arrived in Mumbai on November 
29, 2008, has two major jobs. One is the pursuit of justice, 
which involves traditional forensic-based investigative work to 
track down those who have murdered Americans and to determine 
who the attackers' co-conspirators were. Two, and equally 
important, is the pursuit of the prevention mission, which 
involves generating new information to determine who else might 
be out there who potentially poses a threat to the United 
States, our citizens, and our allies.
    While the Mumbai investigation is still in its infancy, the 
FBI is working with our Indian law enforcement and intelligence 
partners to help uncover information about how the attacks were 
executed, how the attackers were trained, and how long the 
attacks took to plan. We can and have already begun to share 
that information, in conjunction with DHS, with our Federal, 
State, and local partners at a classified and an unclassified 
level and to use it to bolster our efforts to protect the 
homeland. But the most valuable lessons learned will come at 
the conclusion of this investigation.
    So far, the Mumbai attacks have reinforced several key 
lessons. One, terrorist organizations don't need weapons of 
mass destruction, as Senator Collins pointed out, or even large 
quantities of explosives to be effective. The simplest weapons 
can be as deadly. It comes as no surprise that a small, 
disciplined team of highly-trained individuals can wreak the 
level of havoc that we saw in Mumbai. Other terrorist groups 
will no doubt take note of and seek to emulate the Mumbai 
attacks. The take-home lesson for the FBI and the DHS and law 
enforcement is that we need to continue to look at both large 
and small organizations with the right combination of 
capabilities and intent to carry out attacks.
    Two, we need to reenergize our efforts to keep the American 
public engaged and vigilant. That is critical to the effort to 
prevent something like the Mumbai attacks from occurring on our 
shores. As we engage the public, we want to attempt to avoid 
what happened before the first World Trade Center attacks in 
1993. People observed the eventual perpetrators of that attack 
mixing chemicals and engaging in suspicious behavior. They 
talked about it, but they did not report it to the authorities.
    A key tool for engaging the public and our law enforcement 
partners is eGuardian, a web-based application to track 
suspicious incident reporting. As we receive information on 
threats from law enforcement, other Federal agencies, and the 
general public, we input these reports into the system, where 
they can be tracked, searched, analyzed, and triaged for 
action. No threat report is left unaddressed. Although roughly 
97 percent of these incidents are ultimately determined to have 
no conclusive nexus to terrorism, we believe we cannot afford 
to ignore potentially important threat indicators.
    We have begun a pilot deployment of a new system called 
eGuardian, which is an unclassified system that enables 
participation by our State, local, Federal, and tribal law 
enforcement partners. The eGuardian software will enable near-
real time sharing and tracking of terrorist information and 
suspicious activities among State, local, tribal, and Federal 
entities.
    Finally, we must remember that terrorist organizations may 
begin as a threat to their surrounding localities, but can 
quickly gain broader aspirations. The Mumbai attacks reinforce 
the reality that Lashkar-e-Taiba, the group believed to be 
responsible for the Mumbai attacks, has the capability to 
operate outside its own home base of Kashmir. These attacks 
remind us that we must examine other groups that appear to be 
active only locally and determine where they have the 
operational capability and strategic intention to undertake a 
more regional or global agenda.
    In conclusion, Mr. Chairman, as the threats to the United 
States become more global, the FBI is expanding our 
collaboration with our law enforcement and intelligence 
partners around the world. We are working with our 
international partners to prevent terrorist attacks and assist 
in their investigations when they do occur. And, as we have 
done with the Mumbai attacks, we will continue to analyze and 
share lessons learned from these investigations to help prevent 
future attacks at home or against U.S. interests abroad.
    Chairman Lieberman. Thanks, Mr. Van Duyn.
    Just a point of clarification--and you don't have to refer 
to this case--I take it that it is possible for the FBI, if it 
determines it is in our interest, to request extradition of 
accused individuals in foreign cases to be tried here at home, 
with the permission of the foreign country?
    Mr. Van Duyn. That is correct.
    Chairman Lieberman. Thank you.
    The three of you, just looking at Commissioner Kelly's 
record, have an extraordinary number of years in public 
service. Because I respect Charlie Allen, I won't count the 
years here publicly.
    Commissioner Kelly began in the Vietnam War, served 30 
years in the Marines, the Marine Corps Reserve, joined the New 
York Police Department, served there for 31 years, that 
culminating in 1992 in his selection as Commissioner. A few 
years later, he retired from that and went into the private 
sector and then came back to public service. He served our 
National Government as a Commissioner of the U.S. Customs 
Service and as Under Secretary for Enforcement at the Treasury 
Department, where he was responsible for the U.S. Secret 
Service, Financial Crimes Enforcement Network, and the Office 
of Foreign Assets Control, and then returned now for his second 
time as Commissioner of the New York Police Department (NYPD).
    We are very grateful you took the time to be here. I must 
tell you that we have had a wonderful working relationship on 
this Committee with the NYPD in a wide array of areas. This 
Department is, with all deference to other local police 
departments around the country, so far ahead in its 
counterterrorism programs that it really does set the standard. 
Perhaps, some might say, well, that is understandable because 
of the World Trade Center attack in 1993 and then, of course, 
September 11, 2001, but the fact is you have done it, 
Commissioner. You have played a significant part in it.
    I have looked at your testimony. I am very impressed by the 
extent to which you already have a program, which I know you 
will talk about, to try to raise the guard at so-called soft 
targets, which I think could be a model for other cities around 
the country. But thank you for being here and we look forward 
to your lessons learned from the Mumbai attacks.

  TESTIMONY OF HON. RAYMOND W. KELLY,\1\ POLICE COMMISSIONER, 
                        CITY OF NEW YORK

    Mr. Kelly. Well, thank you very much, Mr. Chairman. Thank 
you, Senator Collins. Thank you for inviting me to speak about 
the lessons that the New York City Police Department has drawn 
from the events in Mumbai.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kelly appears in the Appendix on 
page 72.
---------------------------------------------------------------------------
    Within hours of the end of the attack, the NYPD notified 
the Indian government that we would be sending personnel there. 
On December 1, 2008, we dispatched three senior officers. Their 
assignment was to gather as much information as possible about 
the tactics used in the attack. This is in keeping with the 
practice we have followed for several years. In all cases, our 
officers do not take part in investigative activity.
    In Mumbai, our officers toured crime scenes, took 
photographs, and asked questions of police officials. They 
relayed what they learned back to New York. These officers are 
part of the Department's Overseas Liaison Program, in which we 
post experienced personnel in 11 cities around the world. They 
partner with local police and intelligence agencies and respond 
when terrorist incidents occur.
    In this case, the most senior officer in the group had 
served as a liaison in Amman, Jordan. In July 2006, when seven 
bombs exploded in Mumbai trains and railway stations, he flew 
to the city on a similar mission. The relationships that he 
forged during that trip proved helpful in November.
    As you know, it is believed that the perpetrators of both 
attacks were members of the radical Islamist group Lashkar-e-
Taiba, which has been fighting Indian security forces for 
decades. From the perspective of the New York City Police 
Department, one of the most important aspects of this attack 
was the shift in tactics, from suicide bombs to a commando-
style military assault where small teams of highly-trained, 
heavily-armed operatives launched simultaneous sustained 
attacks. They fanned out across the city in groups of two and 
four.
    They carried AK-56 assault rifles, a Chinese manufactured 
copy of the Russian AK-47. It holds a 30-round magazine with a 
firing rate of 600 to 650 rounds per minute. In addition, the 
terrorists each carried a duffel bag loaded with extra 
ammunition, an average of 300 to 400 rounds contained in as 
many as 12 magazines, along with a half-dozen grenades and one 
plastic explosive or IED.
    The attackers displayed a sophisticated level of training, 
coordination, and stamina. They fired in controlled, 
disciplined bursts. When our liaisons toured the hotels and 
railway stations, they saw bullet holes that shots were fired 
in groups of three aimed at head level. With less-experienced 
shooters, you would see bullet holes in the ceiling and floor. 
This group had, we believe, extensive practice, and the numbers 
of casualties show it. Ten terrorists managed to kill or injure 
almost 500 people.
    They were experienced in working together as a unit. For 
example, they used hand signals to communicate across loud and 
crowded spaces. And they were sufficiently disciplined to 
continue their attack over many hours. This had the effect of 
increasing the public's fear and keeping the incident in the 
news cycle for a longer period of time.
    These are a few of the differences from what we have seen 
before. Consistent with previous attacks around the world were 
some of the features of the target city. The country's 
financial capital, a densely-populated, multi-cultural 
metropolis, and a hub for the media and entertainment 
industries. Obviously, these are also descriptions of New York 
City.
    The attackers focused on the most crowded public areas and 
centers of Western and Jewish activity. This, too, is of 
interest to the police department. The two New Yorkers who were 
killed were prominent members of the Chabad Lubavitch religious 
movement, which is based in Brooklyn, New York.
    We are also mindful that the attackers approached Mumbai 
from the water. That obviously is an issue in a major port city 
like New York. For that reason, our harbor officers are trained 
in and equipped with automatic weapons. They have special 
authority to board any ships that enter the port. Our divers 
inspect the holds of cruise ships and other vessels as well as 
the piers they use for underwater explosive devices. We engage 
in joint exercises with the U.S. Park Service to protect the 
Statue of Liberty from any waterborne assault, and heavily-
armed Emergency Service officers board the Queen Mary II at 
Ambrose Light before it enters New York Harbor to make certain 
no one tries to take over this iconic ship when it enters city 
waters. These are a few examples.
    As much as we do, the NYPD, even with the Coast Guard's 
formidable assistance, cannot fully protect the harbor, 
especially when one considers the vast amounts of uninspected 
cargo that enters the Port of New York and New Jersey. I have 
testified before about the urgent need for better port and 
maritime security. Mumbai was just another reminder.
    Our liaisons arrived in Mumbai on December 2, 3 days after 
the attacks ended. By December 5, our Intelligence Division had 
produced an analysis, which we shared with the FBI. That 
morning, we convened a special meeting with members of the NYPD 
Strategic Home Intervention and Early Leadership Development 
(SHIELD) program. This is an alliance between the Police 
Department and about 3,000 private security managers based in 
the New York area. We had the leader of our team in Mumbai call 
in and speak directly to the audience. We posted photographs 
and maps to help them visualize the locations. We also reviewed 
a list of best practices in hotel security. This is a set of 
items we routinely share when our counterterrorism officers 
conduct training for hotel security.
    Through another partnership, Operation Nexus, NYPD 
detectives have made thousands of visits to the kind of 
companies terrorists might seek to exploit, truck rental 
businesses or hotels, for example. We let them know what to 
look for and what to do if they observe suspicious behavior.
    With hotels, we focus on protecting the exterior of the 
building from a vehicle-borne threat, but we also emphasize 
knowing who is in your building and recognizing that the attack 
may be initiated from inside the facility. We talk about how to 
identify a hostile surveillance or the stockpiling of 
materials, controlling points of entry, and having a thorough 
knowledge of floor plans and a widely distributed emergency 
action plan.
    In Mumbai, the attackers appeared to know their targets 
better than responding commandos. With this in mind, since the 
beginning of December, the New York City Police Department has 
toured several major hotels. Supervisors in our Emergency 
Service Unit are documenting the walk-throughs on video camera, 
filming entrances and exits, lobbies, unoccupied guest rooms, 
and banquet halls. We plan to use the videos as training tools.
    Through a vast public-private partnership, our Lower 
Manhattan Security Initiative, we also have access to hundreds 
of private security cameras owned and operated by our private 
sector partners in Manhattan's financial district. These are 
monitored in a newly-opened coordination center in downtown 
Manhattan.
    In an active shooter incident, such as we saw in Mumbai, by 
far the greatest number of casualties occur in the first 
minutes of the attack. Part of the reason the members of LeT 
were able to inflict severe casualties was that, for the most 
part, the local police did not engage them. Their weapons were 
not sufficiently powerful and they were not trained for that 
type of conflict. It took more than 12 hours for Indian 
commandos to arrive. By contract, the NYPD's Emergency Service 
Unit is trained in the use of heavy weapons and the kind of 
close-quarter battle techniques employed in Mumbai.
    In addition, we have taken a number of steps to share this 
training more widely among our officers. On December 15, 16, 
and 17, our police recruits received basic instruction in three 
types of heavy weapons. They learned about the weapons' 
operating systems, how to load and unload, and how to fire 
them. They were the first class to receive what will now be 
routine training for our police academy recruits.
    On December 5, we conducted two exercises, one a tactical 
drill for Emergency Service officers, the other a tabletop 
exercise for commanders. Both scenarios were based on the 
attacks in Mumbai. In the exercise with our command staff, we 
raised the possibility that we might have to deploy our 
Emergency Service officers too thinly in the event of multiple 
simultaneous attacks, such as those in Mumbai. We also 
recognize that if the attacks continued over many hours, we 
would need to relieve our special units with rested officers.
    In response to both challenges, we have decided to provide 
heavy weapons training to experienced officers in our Organized 
Crime Control Bureau. They will be able to play a supplementary 
role in an emergency. Similarly, we decided to use the 
instructors in our Firearms and Tactics Unit as another reserve 
force. Combined, these officers will be prepared to support our 
Emergency Service Unit in the event of a Mumbai-style attack.
    Chairman Lieberman. Commissioner, excuse me for 
interrupting. Don't worry about the time. Do I understand, 
then, that as a direct reaction to the Mumbai incidents, you 
have expanded this training of both your recruits and back-up 
forces in the use of the heavy weapons that will be necessary 
to respond?
    Mr. Kelly. That is correct. We had the recruits who were 
still in training----
    Chairman Lieberman. Right.
    Mr. Kelly [continuing]. So we gave them that training 
immediately. Now, we are not going to issue them heavy weapons, 
but at least they are now familiar with it.
    We will start training of specialized units, senior 
officers in our Narcotics Division, our Vice Division, and what 
we call our Organized Crime Control Bureau. They will receive 
heavy weapons training and some tactical training. They will 
each receive 5 days of specialized training.
    Chairman Lieberman. Do you have a departmental standard, a 
kind of goal, of the time in which you aim to get your 
personnel to a shooting incident, for instance?
    Mr. Kelly. Well, obviously we have the patrol officer who 
will respond.
    Chairman Lieberman. Right.
    Mr. Kelly. Those officers are performing normal patrol. But 
I think it is important to point out that our Emergency Service 
officers, the officers armed with heavy weapons and going 
through 6 months of specialized training, they are on patrol, 
as well. So they can respond very quickly. They are not in any 
garrison. They are out on the street. Our heavy weapons are out 
on the street.
    What we are concerned in this instance about, as I say, is 
sustained engagement, where we will need to relieve those 
officers.
    Chairman Lieberman. Go right ahead.
    Mr. Kelly. The other issue that we examined in our 
exercises last month--and that was the subject of a New York 
Times article yesterday--is the ability of the terrorist 
handlers to direct operations from outside the attack zone 
using cell phones and other portable communications devices. 
With this comes a formidable capacity to adjust tactics while 
attacks are underway.
    We also discussed the complications of media coverage that 
could disclose law enforcement tactics in real time. This 
phenomenon is not new. In the past, police were able to defeat 
any advantage it might give hostage takers by cutting off power 
to the location they were in. However, the proliferation of 
hand-held devices would appear to trump that solution. When 
lives are at stake, law enforcement needs to find ways to 
disrupt cell phones and other communications in a pinpointed 
way against terrorists who are using them.
    Now, all of the measures that I have discussed are part of 
a robust kind of terrorism program that we have built from the 
ground up since 2002, when we realized that we needed 
additional focus on terrorism.
    Now, we know that the international threat of terrorism is 
not going away. Terrorists are thinking creatively about new 
tactics. So must we. And while we have to learn from Mumbai and 
prepare to defend ourselves against a similar attack, we cannot 
focus too narrowly on any one preventive method. We need to go 
back to basics, strengthen our defense on every front, stay 
sharp, well trained, well equipped, and constantly vigilant. 
And we must continue to work together at every level of 
government to defeat those who would harm us.
    I want to thank the Committee for your crucial support in 
making this possible and for your opportunity to share our 
lessons learned.
    Chairman Lieberman. Thanks very much, Commissioner, for 
very helpful, impressive testimony.
    Let me begin with you, if I might. I think the answer may 
be implicit or explicit in your testimony, but do you view 
Mumbai as a turning point in the war that the terrorists are 
waging against us in the sense that it employed a different 
strategy and a series of different tactics that we now have to 
worry will be emulated elsewhere in the world?
    Mr. Kelly. Well, it certainly could be, and that is exactly 
what it is, a low-tech approach. We have been concerned, and 
understandably, about suicide bombings that have happened 
throughout the world. Here, we see 10 individuals armed with 
very basic weaponry. We don't believe that the AK-56 that they 
had, the weapons, were even automatic. We believe they were 
semi-automatic. So these were basic weapons that created almost 
500 deaths and serious injuries.
    So yes, we certainly look to learn more from our Federal 
colleagues as their investigation moves forward, but it could 
very well be a turning point in a sense that the relative 
simplicity of this attack is picked up by others.
    Chairman Lieberman. Mr. Van Duyn, in what is now a longer 
war on terrorism, and longer yet ahead of us, is this the 
opening of a new tactic on familiar battlefields?
    Mr. Van Duyn. I think it certainly has that potential. The 
issue is, I think, terrorists are very attuned to the media.
    Chairman Lieberman. Right.
    Mr. Van Duyn. They look to see what is successful and what 
they can do. We sometimes focus on tactics that may be exotic 
and esoteric like weapons of mass destruction (WMD), which 
clearly would be horrible, but for most terrorists, they are 
looking for what works. So this was an attack that 
unfortunately was clearly successful, so I think we can expect 
that groups will look to that as a model for themselves.
    Chairman Lieberman. This is what struck me, which is that 
one difference between Mumbai and at least the other more 
notorious terrorist incidents of recent years was that it went 
over a period of time. It was not the suddenness, the awful 
suddenness of the attacks of September 11, 2001, or the attacks 
on subways, for instance, or transit facilities in Madrid or 
London, but it was basically laying siege to a city, and you 
are absolutely right, taking advantage of media coverage to 
create a general sense of terror well beyond the city where it 
occurred.
    Mr. Allen, do you have a response to that question, how you 
would put it in the context of this overall war on terrorism?
    Mr. Allen. Yes. I think it does demonstrate something I 
have long believed, that terrorists continue, whether it is 
Madrid or whether it is July 11, 2006, in Mumbai. You will 
recall there were train explosions which cost more lives.
    Chairman Lieberman. Right.
    Mr. Allen. The attacks were virtually concurrent. But it 
did not galvanize the world. Here, the attack was on the 
financial and entertainment centers of Mumbai and they were 
able to galvanize the world for 72 hours. So I think what we 
take away from this is a very sober thought, that soft targets 
can create for political effect exactly what extremists want 
because it is clear that some of the Lashkar-e-Taiba leaders at 
the time were, and remain, I think, very enthusiastic that they 
were able to bring great attention to their cause. Now they are 
under some suppression today.
    But I think we ought to take away from this, as Mr. Van 
Duyn said, that we spend a lot of time working esoteric 
threats, which are horrific, but there are other horrific ways, 
and the sheer brutality of this attack certainly, I believe, is 
a kind of thing that can be conducted against soft targets 
around the world.
    We are very fortunate that we have not had these attacks. 
The Bureau has done a great job. We remember in Rockville, 
Illinois, we had an individual who was caught in a sting 
operation who was going to throw a hand grenade and perhaps use 
a pistol to shoot his way in a shopping mall on December 6, 
2006. Fortunately, he was caught. But this kind of attack, I 
think we have to be prepared for it and be prepared for soft 
targets to be attacked. Shopping malls must have evacuation 
plans, and I am afraid to say not many of them really have them 
or exercise them.
    Chairman Lieberman. I want to come back to that in my 
second round of questions, but finishing up on this first 
round, I want to ask about Lashkar-e-Taiba because it was 
hardly known. Almost every American has heard of al-Qaeda. I 
doubt very many had heard of LeT before the Mumbai attacks, or 
I doubt today whether very many people in this country, even in 
Congress, know that this group has already had an effect in the 
United States.
    As Senator Collins said in her opening statement, we have 
arrested, and in some cases convicted, individuals in the 
United States who were intending to carry out a terrorist 
attack or beginning to do so who were trained at Lashkar-e-
Taiba training camps in Pakistan. Since September 11, 2001, as 
this Committee has documented in our own hearings, we have 
learned over and over again that homegrown terrorists who 
actually train with an Islamist terrorist organization are much 
more capable of eventually carrying out an attack.
    Commissioner Kelly, let me start with you. Looking forward, 
what would you say is the likelihood that more individuals in 
the United States, once radicalized, will travel to South Asia 
to train with Lashkar-e-Taiba or groups like it?
    Mr. Kelly. Well, we have seen that in the past, so 
obviously it is an area of concern for us, to travel to 
Pakistan. We have seen people from the United Kingdom going 
there with great frequency, and of course, it is just a hop, 
step, and a jump over the pond, so to speak, to come here. So 
the possibility or the capability of going to Pakistan and 
receiving the training to come back and hurt us in a major way 
is certainly there and we have seen it as an ongoing issue.
    Chairman Lieberman. Right. Mr. Van Duyn, do you want to add 
anything to that, just on the probability? I am correct, I know 
that we have on record people from this country who have gone 
to the LeT camps in Pakistan and come back and conspired to 
carry out terrorist attacks. Is that likely to continue on into 
the future, perhaps at a greater rate?
    Mr. Van Duyn. We certainly share that concern and the fact 
that there are still LeT camps plus the camps of other groups. 
LeT is just one of a number of Pakistani-Kashmiri militant 
groups, many of which have training camps. You will recall that 
in 2004, there was a group in Lodi, California, that we also 
disrupted that had trained in Pakistan.
    Chairman Lieberman. Yes.
    Mr. Van Duyn. I think just as important as Pakistan, 
however, is the recognition that people who travel to train 
with the mujahideen anywhere in the world can represent a 
threat. There have been recent press reports about young 
individuals from Minneapolis, for example, going to Somalia to 
fight there. This is something of which we are profoundly aware 
and are attempting to monitor.
    Chairman Lieberman. Mr. Allen.
    Mr. Allen. Yes. I would just say that we have to worry 
about people being attracted to this form of extremism, not 
only Somalis but others, and we have had these connections. 
Particularly, we have had British citizens who have gone into 
Lashkar-e-Taiba camps. We have had also al-Qaeda members who 
have had informally connections with Lashkar-e-Taiba. I won't 
say that one is controlled by the other, which it is not, but 
there has always been that linkage. You must remember, Abu 
Zubaydah, who was caught in March 2002, was the first major 
high-value terrorist to be caught after September 11, 2001, and 
he had been staying in a safe house that belonged to Lashkar-e-
Taiba. So there are these linkages that go back, and informal 
linkages go back between al-Qaeda and Lashkar-e-Taiba and that 
should give us something to worry about, as well.
    Chairman Lieberman. Yes, exactly. So when we in the United 
States press our allies in Islamabad and the Pakistani 
government to take action to clean up and bring to justice LeT 
and other terrorist groups operating in Pakistan, it is not 
just a short-term response to the Mumbai attacks or in defense 
of the majority of law-abiding people in Pakistan and India who 
will be targets of those terrorists potentially, but when we 
ask our allies in Pakistan to take action against terrorist 
camps within Pakistan, it is also to protect the homeland 
security of the American people because of the path that 
radicalized Americans have taken in going to those camps in 
Pakistan to train, to come back and carry out attacks here in 
the United States.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Van Duyn, to follow up on the Chairman's question, you 
stated in your testimony that LeT had already demonstrated its 
capability to operate outside its home base. I read with alarm 
the reports of some in the Somali community in Minnesota 
potentially being recruited to go to Somalia to fight. 
Terrorist groups have two approaches here. They can either send 
operatives from other countries into our communities to try to 
launch attacks, or they can try to cultivate homegrown 
terrorists, which has been a major source of this Committee's 
activities, looking at the domestic threat of radicalization.
    Taking that approach, however, involves considerable 
expense and the risk of being caught by local law enforcement. 
How prevalent do you think the activities are of terrorist 
groups such as LeT coming into our country, not with the 
purpose of launching attacks themselves, but rather recruiting 
Americans through a radicalization process?
    Mr. Van Duyn. We clearly see groups, and not only LeT, who 
either through contacts with individuals in the United States 
or sometimes by travelling to the United States, may propagate 
a radical message, which can lead to the radicalization. Also 
there is interest, as in the case of the al-Shabaab, in 
recruiting individuals to go fight in the jihad. We also see a 
fair amount of fundraising by a host of groups inside the 
United States among populations that are associated with the 
countries from which the groups emanate.
    So we are clearly seeing this. I think it is fair to say, 
though, that we do not see anything on, say, the order of what 
may be occurring in the United Kingdom or in other places in 
Europe, that it is more fragmentary and unconnected than that. 
But nonetheless, yes, it is occurring.
    Senator Collins. And is the FBI continuing its outreach 
activities to Muslim Americans in the major cities, for 
example, Detroit, that we have heard previously about, in an 
attempt to identify individuals who may be caught up in the 
radicalization process and also to develop counter-messages?
    Mr. Van Duyn. Yes, very much so. All 56 of our field 
offices have outreach programs. We have an outreach program 
that also emanates from our headquarters here that involves the 
Director and others. Out in the field, we have a number of 
programs. We have instituted a new Community Program. We have 
one program where we will bring people back to Quantico, 
Virginia, to talk to them about the FBI and the U.S. Government 
and what we do. We have now the Community Program, which is a 
2-week program in which we bring in community leaders to talk 
to them and to try and establish a degree of trust.
    We also developed another vehicle when you have a situation 
like we have seen with Somalis, which is to go out to the 
specific communities in a more targeted fashion. So this is 
very much a part of our efforts and in conjunction with DHS 
because the issues for the local communities frequently involve 
the whole of the U.S. Government in many respects, so it is a 
joint effort. But we consider it to be very important and 
really a foundation for what we are doing.
    Senator Collins. Mr. Allen, Commissioner Kelly described 
two very impressive efforts, the SHIELD program and Operation 
Nexus, in which NYPD reaches out to the private sector to try 
to involve them and to extend the eyes and ears of the police 
department. I am very impressed with those types of activities 
because when you are talking about soft targets, it is an 
almost infinite universe and virtually impossible for law 
enforcement on its own to protect every potential target.
    What is the Department doing to reach out to the private 
sector, since 85 percent of critical infrastructure assets are 
owned by the private sector and thus are potential targets that 
Government is not directly involved in protecting?
    Mr. Allen. Well, I think we have a very vigorous program 
here, working with my own Critical Infrastructure Threat 
Analysis Division and working with the Infrastructure 
Protection Directorate, under the leadership of Assistant 
Secretary Bob Stephan, which together are called the Homeland 
Infrastructure Threat and Risk Analysis Center (HITRAC), which 
is directed right at the private sector. Between Bob Stephan 
and my own office, we immediately, as soon as we began to 
understand what had occurred on the ground in Mumbai, had a 
conference call with hundreds of infrastructure sector 
councils. We had 250 people from the private sector on the 
teleconference and we went through in great detail some of the 
information that Commissioner Kelly, Don Van Duyn, and I have 
just relayed here today to get them thinking about the problem. 
Commercial facilities sector, in particular, have to think 
about this because they have theme parks, they have all kinds 
of things that fall under their oversight. These are people 
with whom we can also talk at classified levels.
    So we have a very vigorous program. I send analysts, along 
with Bob Stephan, the Secretary's specialist, right across the 
country on a regular basis every week to talk to them about 
techniques, tactics, and procedures. The program is vigorous 
and we have to sustain it and I am very pleased with what we 
are doing.
    Senator Collins. Commissioner, what is your assessment of 
DHS's efforts to reach out to local law enforcement and share 
information on tactics, the threat, etc.?
    Mr. Kelly. We work very closely with DHS. I think their 
effort is significant and absolutely essential for us. They are 
sharing information as never before. Of course, that is also 
true of the FBI, as well. We have 125 investigators working on 
the Joint Terrorism Task Force (JTTF) in New York City. That is 
up from 17 investigators on September 11, 2001. So we are 
working closer than ever before with our Federal partners.
    Senator Collins. I am very impressed that by December 5, 
the NYPD had already produced an analysis of the Mumbai 
attacks, which it shared with New York City private security 
managers through your SHIELD program. That kind of quick 
turnaround is very impressive. Do you share it also with other 
major police departments in the country?
    Mr. Kelly. Certainly, if they ask, but there is no easily 
accessed distribution channel. We share it with the FBI, and 
that is the means of it going throughout the country. There are 
56 field offices and 56 JTTF components that can get the 
information, as well.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    Commissioner Kelly, I want to go for a moment to something 
you testified to, which is how media coverage of an ongoing 
attack can disclose law enforcement tactics in real time and 
how that is particularly frustrated by modern communications 
equipment, which makes it harder for you to close off the 
ability of the terrorists or the hostage takers to communicate 
with one another.
    As you probably know, the Indian government released a 
dossier to the public but also to the Pakistani government 
making a compelling case, I think, for the fact that there were 
Pakistani nationals involved in the Mumbai attacks. The dossier 
includes some stunning conversations, really chilling, between 
the attackers and those directing the attacks from Pakistan. I 
am going to read briefly from one of them.
    Caller One: ``Brother Abdul, the media is comparing your 
action to September 11, 2001. One senior police officer has 
been killed.''
    Terrorist One, as denoted in the transcript: ``We are on 
the 10th and 11th floor. We have five hostages.''
    Caller Two: ``Everything is being recorded by the media. 
Inflict the maximum damage. Keep fighting. Don't be taken 
alive.''
    Caller One: ``Kill all the hostages except the two Muslims. 
Keep your phone switched on so we can hear the gunfire.''
    Terrorist Two: ``We have three foreigners, including women 
from Singapore and China.''
    Caller One: ``Kill them.''
    That exchange not only documents the obvious disregard for 
human life of any kind among the terrorists, but also that they 
were seeking to maximize media attention. In a society where 
the press is free, it is again a challenging question as to how 
we address that vulnerability.
    I wanted to ask you, for instance, does the NYPD have any 
kind of informal agreements with the New York news media about 
how to manage news in this kind of hostage-taking situation, or 
do you know of any standards for doing that at other police 
departments around the country?
    Mr. Kelly. Through the years, I can think of incidents 
where they have been cooperative----
    Chairman Lieberman. Yes.
    Mr. Kelly [continuing]. And withheld information, but it is 
on an ad hoc basis. It depends on the incident. We have no set 
policy. This is the world in which we live, this instant 
communication. I read those transcripts and they are very 
sobering.
    Chairman Lieberman. Right.
    Mr. Kelly. But we have to cope with that. I said in my 
prepared remarks that one of the challenges is to see if we can 
somehow shut down that communication without impeding anybody 
else's communication.
    Chairman Lieberman. Right.
    Mr. Kelly. We have means that we are able to shut off all 
communication in an area, but is that necessarily the wise 
thing to do?
    Chairman Lieberman. Yes, including cell phone 
communication.
    Mr. Kelly. Correct. Is that what we want to do?
    Chairman Lieberman. Understood. So now you are looking at 
whether you have got the ability to target in on particular 
phones or PDAs or whatever.
    Mr. Kelly. Correct.
    Chairman Lieberman. Mr. Allen and Mr. Van Duyn, anything to 
add in response to this question about how we deal with news 
coverage in real time that may assist terrorists?
    Mr. Allen. I think this really prolonged the siege because 
regardless of the responsiveness of the Indian government, the 
fact that the terrorists with controllers abroad were able to 
monitor their activities and monitor what was going on because 
the assault teams were covered live globally and the ability to 
see what was occurring certainly aided and abetted the 
longevity of this crisis, which went on for 8-plus hours. We 
have to believe that in the future, with any kind of sustained 
standoff rather than, say, the Mumbai train attacks, which were 
over in a matter of minutes, we will have to find ways to work 
with the free and open press to deal with this kind of 
activity. This is one that is going to take a lot of dialogue 
with the press.
    Chairman Lieberman. Mr. Van Duyn.
    Mr. Van Duyn. Yes, I would echo what Commissioner Kelly and 
Mr. Allen say. We approach this on an ad hoc basis.
    Chairman Lieberman. Right.
    Mr. Van Duyn. We have had some good success when we can 
explain the case and where it will be a risk to human life. But 
it is on an ad hoc basis and we have to make our case to them.
    Chairman Lieberman. Yes. I just raise the question whether 
it is worth initiating talks with some of the national news 
organizations about this in case an incident of this kind 
should occur? I leave you with that and we will go on briefly.
    Let us talk about these so-called soft targets. As we saw 
in Mumbai, in some cases, these are publicly owned and operated 
facilities, such as a railway station. But for the most part, 
these will be privately owned and operated, as they were in 
Mumbai--hotels, restaurants, and a community center. Obviously, 
we always worry here in the United States and certainly in this 
Committee about shopping malls, as an example. So we have the 
extra challenge here of needing to engage the private sector in 
taking action that is preventive and protective of these soft 
targets.
    In the Implementing Recommendations of the 9/11 Commission 
Act of 2007, we created a voluntary private sector preparedness 
accreditation and certification program in the Department of 
Homeland Security which would allow interested private sector 
companies to be certified as complying with voluntary 
preparedness standards. But, of course, this only provides one 
thin layer of protection.
    Under Secretary Allen, maybe I should begin with you, and I 
would be willing to forgive you if you don't have an answer 
because this is somewhat out of your area of intelligence, but 
do you have any report on the status of both that voluntary 
program at DHS and also anything else that might be going on to 
engage the owners of soft targets in America to protect those 
targets or to be ready to warn of any possible attacks?
    Mr. Allen. I am aware of the program. I am not current on 
the level of participation voluntarily by the private sector.
    Chairman Lieberman. Right.
    Mr. Allen. Let me get back to you and to Senator Collins in 
writing.
    Chairman Lieberman. Fine. How about the other program that 
you talked about, the Suspicious Activity Reporting System?
    Mr. Allen. Yes, and that is something we can host. We don't 
own it or try to direct it. New York City is very much engaged 
in developing very focused methodological means to begin to 
make sense out of all the activities that are reported. Much of 
the suspicious activity, as you know, can be explained away. 
The work is being undertaken by Boston, Los Angeles--under 
Chief Bratton--and Miami, and there are also several States 
that are working directly on this issue. The program manager 
for the information sharing environment is engaged in this 
along with the Department of Justice. We are taking a look at 
that.
    Some of the work that is underway today on which the 
Secretary and the Deputy Secretary at Homeland Security has 
been briefed, we are very pleased with. We certainly want to 
support it. We are not certain that we should try to own it. 
That is not our job. But we think working in partnership with 
the cities across the country, and the States, that we are 
going to get a lot better methodological approach because too 
often we simply have collected data without having the 
methodological tools to interpret it.
    I know that the Commissioner may have some views on this.
    Chairman Lieberman. So you are saying that this rightfully 
and practically ought to be owned by the local governments.
    Mr. Allen. Owned in conjunction with the support from 
ourselves, from the Federal level, from the Department in 
particular. Secretary Chertoff spoke this morning to the 
Homeland Security Advisors about this----
    Chairman Lieberman. Good.
    Mr. Allen [continuing]. And he has stated his commitment, 
and I am sure the new Secretary of Homeland Security will do 
so, as well. We are in the pilot phase of the project. I am 
sure within 6 months to a year, we can come back and brief you 
on where we stand with the pilot project.
    Chairman Lieberman. Good. Commissioner Kelly, let me turn 
to you now and ask you to talk in just a little more detail 
about what the NYPD tells owners of soft targets in New York 
City about how better to prepare themselves or how to know 
suspicious activity.
    Mr. Kelly. Well, a very effective vehicle for us to get 
information out is the NYPD SHIELD program that I mentioned in 
my prepared remarks.
    Chairman Lieberman. Yes.
    Mr. Kelly. We have over 3,000 participants. These are firms 
and companies that are participating with us. We communicate 
with them.
    Chairman Lieberman. They own hotels----
    Mr. Kelly. Hotels, the financial services industries, 
hospitals, and major department stores. They all have 
representation there, and we have segmented it somewhat. For 
instance, we have a separate unit that works with hotels to get 
information from them and to give them information and best 
practices. We communicate with them on a daily basis. About 
every 6 weeks, we have major conferences in our headquarters 
where we will have presentations on what is going on throughout 
the world and what we think can afford them a better level of 
protection.
    So not only are we working in general with private security 
in the city, we are working with individual sectors, as well, 
hotels, for instance. And the feedback is very positive.
    Chairman Lieberman. Let me ask this final question, because 
I have gone over my time. All of this, both the Federal program 
that we have begun and what you have done, which is, I think, 
way ahead of what most other cities have done, is ultimately 
voluntary. Do you think there ought to be some government 
regulation here, that there ought to be some mandatory program, 
that there ought to be some particular help from DHS to the 
local police departments to facilitate this program, or is it 
really best done in this way that it is being done now by you?
    Mr. Kelly. Well, I think perhaps some study should be given 
to whether or not there should be basic levels of training for 
security personnel throughout the country.
    Chairman Lieberman. Yes.
    Mr. Kelly. We are moving in that direction in New York 
City, so we have a comfort level that security personnel have 
at least the rudiments of what to do----
    Chairman Lieberman. Private security personnel.
    Mr. Kelly. Private security, I am talking about. Perhaps 
that area should be examined. We think the voluntary aspect of 
what we are doing is working. We have people knocking on our 
door to join and we welcome them. There is a lot of 
participation. As I say, the feedback is very positive because 
they are getting something of value. Again, I would say that, 
positively, a basic level of training for security personnel.
    Chairman Lieberman. Fine. My time is way beyond my limit, 
so I would ask Mr. Van Duyn and Mr. Allen to think about, as 
you go away from here today, whether there is any additional 
programmatic or even regulatory assistance that would be 
helpful from the Federal level.
    Senator Collins. Commissioner, last year, the Chairman and 
I authored a law that we referred to as the ``See Something, 
Say Something'' law that provided protection from lawsuits when 
individuals reported suspicious activity in good faith in the 
transportation sector to the appropriate authorities. It was 
difficult, but we were able to get that signed into law.
    Do you think that we should look at expanding that law so 
that if an individual in good faith reports suspicious activity 
that could indicate a terrorist plot to the appropriate 
authorities, regardless of whether it relates to the 
transportation sector, those individuals would be protected 
from lawsuits?
    Mr. Kelly. I think it made eminent good sense, that law, 
and I certainly would recommend that it be expanded if at all 
possible. It is based on sort of the good samaritan approach.
    Senator Collins. Exactly.
    Mr. Kelly. So I thought it was an excellent piece of 
legislation. I commend you for it.
    Senator Collins. Thank you. Glad I asked the question. 
[Laughter.]
    It is always risky to ask one when you don't know what the 
answer is going to be.
    I think that is something that I would certainly be 
interested in working with the Chairman on, because as I looked 
at your programs, which, as I said, I find to be so 
comprehensive and far-reaching, they really do depend on people 
speaking up and cooperating with you----
    Mr. Kelly. Right.
    Senator Collins [continuing]. And if they are fearful of 
being sued for doing so, that is going to inhibit their 
willingness to report.
    Mr. Kelly. One thing we do very well in New York City is 
sue. [Laughter.]
    Senator Collins. Exactly. Mr. Allen and Mr. Van Duyn, do 
you have any comments on whether broadening that law, which 
became law last year, would be helpful to your activities?
    Mr. Allen. I think it would be very helpful to the 
Department. We get a lot of activity, some of which we 
investigate. The Bureau does a lot of investigation based on 
suspicious activity. As Mr. Van Duyn knows, the Bureau runs to 
ground all leads that appear suspicious. We were able to look 
at suspicious activity on ferries in the Puget Sound a year and 
a half ago. We have done a number of activities that if it is 
not terrorism activity, it may well be criminal activity. We 
see things that look very suspicious. The Commissioner is 
concerned about chemical plants in New Jersey. There have been 
suspicious activity reports. All of those, I think, are useful, 
and I think good citizens, good Americans ought to be free and 
able to report this without fear of a lawsuit, without fear of 
being sued.
    Senator Collins. Mr. Van Duyn.
    Mr. Van Duyn. Yes, and we would concur. The public is our 
eyes and ears, along with State, local, and tribal law 
enforcement. And as you noted, the Fort Dix plot, that was 
tipped off because of an alert person in a pharmacy.
    Senator Collins. Correct. Thank you. Mr. Van Duyn, I want 
to go back to the issue of terrorist groups recruiting 
Americans to be trained to participate in terrorist plots. It 
makes sense to me that LeT or al-Qaeda or another group would 
try to radicalize Americans because then they are able to more 
freely travel. They know the communities in which they life. 
They are less likely to arouse suspicion.
    But what puzzles me are the reports of terrorist groups 
recruiting Americans and radicalizing them to fight overseas, 
as in, for example, the case of Somalia. I would understand if 
LeT or some other group were recruiting Americans in the United 
States to commit terrorism within the United States, but why go 
to the expense and trouble of recruiting Americans to bring 
them overseas to engage in combat where they may die or even 
become a suicide bomber?
    Mr. Van Duyn. That is actually an excellent question and it 
is one that we have been pondering in relation to the Somalis 
who may have been going over, in terms of what the capabilities 
they brought to the fight. I think there is a sense, a pan-
national sense of contributing to the global jihad and they 
will look for anybody who can contribute to that, whether it is 
in Chechnya, Russia-Georgia, or Somalia.
    I think the difference with the groups that have an intent, 
and particularly al-Qaeda which has the intent to attack the 
homeland, there, they would be looking for people with, as you 
point out, that ability to travel. And it may also not be with 
the ability to travel back to the United States. We have to 
consider that the interest in Americans may be to have them 
travel to somewhere else in addition to fighting.
    In part, I believe the fighting also is a way to vet 
people's commitment to the cause as a way to train them. A fear 
that we have also is that people who fight overseas and come 
back, they have skills, they are committed, they can also serve 
as cadres for recruitment, if you will. They will have a street 
credibility that will attract young people to them. So while 
they may not have been wanted to attack the United States when 
they were overseas, that may change over time. So we are 
concerned that people will acquire skills and attitudes that 
may lend them with the intent or capability to attack the 
United States when they return.
    Mr. Allen. Senator, may I speak to that just briefly?
    Senator Collins. Mr. Allen, please do.
    Mr. Allen. I believe the Somalis, many of whom arrived 
here, maybe 160,000 since our intervention in December 1992 in 
Somalia and East Africa, I think many who have gone, of the 
numbers that we can talk about, some dozens apparently have 
gone to East Africa, they really still identify very much with 
their family and sub-clans in Somalia. They have not 
assimilated well into the American society as yet. So I think 
there is a real distinct difference here. So that is one reason 
that they are willing to go fight overseas.
    The real worry is that once they learn, as I believe 
Commissioner Kelly said, how to use a simple AK-47, they can 
come and use such a weapon here in the United States. Now, we 
don't know of any that plan to do that, and for that we are 
very thankful, but this is a very different problem from Muslim 
Americans who, as a Pew Research Center study showed, most of 
them are well situated and more comfortable as Americans, well 
situated in this country and stand for its core beliefs.
    Senator Collins. Thank you. Thank you, Mr. Chairman. I 
would just say that I, too, read the transcripts of some of 
those calls and they are so chilling in the Mumbai attack. You 
can't help but be struck also by the use of technology that the 
handlers apparently in Pakistan were instructing the commandos 
as the attack was underway. And then for me, the most chilling, 
in addition to the ``kill them'' instruction, was ``leave the 
line open so that we can hear the gunfire.''
    Chairman Lieberman. I couldn't agree more. Thanks, Senator 
Collins.
    I have one more line of questions and then will yield to 
Senator Collins if she has any more. This goes to this 
difficult question of how do we secure the coast that we have. 
We have an enormous coast in the United States of America. Not 
all, but most of our great cities--I hope I don't get in 
trouble with too many cities--are located on water. That is 
historically where great cities began. Commissioner Kelly, you 
have described what the NYPD is doing to protect the City of 
New York from damage from the water, but said quite honestly 
that you can't fully protect the harbor.
    Understanding that we are never going to be 100 percent 
safe in this wonderfully open country of ours, what more could 
the Federal Government do to assist municipalities or even 
State governments in providing more security from attack that 
comes from the sea?
    Mr. Kelly. Well, in my previous testimony, I really talked 
about the examination of cargo in overseas ports, which has 
been started by Customs and Border Protection. I would like to 
see a lot more of that. The so-called Hong Kong model, I think 
is viable. I think it is something that we should look very 
closely at.
    As far as an attack from the sea similar to what happened 
in Mumbai, it is difficult. We are doing a lot. We have boats 
that are deployed 24 hours a day. We work closely with the 
Coast Guard. As I say, we are authorized to board vessels. The 
Coast Guard has given us that authority. But you can only do so 
much. There is no magic answer. That is why intelligence 
really, at the end of the day, is the key, I mean, information 
as to what is going to happen as opposed to hoping to luckily 
intercept an event on the water. We have committed a lot, but 
there are no guarantees.
    Chairman Lieberman. It is a very important point, your last 
one, which is that intelligence has always been important in 
war, but never more important than in this unconventional war 
that we have been drawn into with terrorists. Because of the 
way in which they operate, from the shadows, not in 
conventional boats at sea or armies on land or planes in the 
air, and the fact that, of course, they strike intentionally at 
undefended non-military targets, intelligence is critically 
important.
    Mr. Allen and Mr. Van Duyn, do you have anything to add 
about anything ongoing? Now, I know there have been some 
attempts to begin to try to check small craft or----
    Mr. Allen. Right. We have a Small Vessel Strategy. The 
Secretary has made this a centerpiece of some of his work. For 
the last year, our Office of Policy and our Coast Guard have 
been working with the International Maritime Organization to 
create Small Vessel Security Guidelines. That is one thing that 
we think would be important, particularly for boats under 300 
tons. If they are foreign vessels, we want to get a much better 
look at it. We have a Great Lakes Strategy that we are working 
because there are millions of boats in the Great Lakes and they 
could be used for various and sundry purposes as well as used 
for recreation and commerce.
    So this has been a centerpiece of the Secretary's efforts 
over the past year, to improve our control of ingress to our 
major ports. We have put out a lot of radiation detection 
devices in all ports, the Puget Sound, and inland waterways. So 
this has been a significant effort and I think the Secretary, 
as he leaves office, will look back on this particular effort 
as one that is going to bear fruit in the coming years.
    Chairman Lieberman. We appreciate that and will be in 
communication with the Department and the new Secretary as we 
go forward to determine how we can help not only enable that 
program, but perhaps to give it some greater statutory 
standing.
    Mr. Van Duyn, do you want to comment on this question of 
how to defend us from attacks from the sea?
    Mr. Van Duyn. Our focus is really on what Commissioner 
Kelly was talking about, which is developing the intelligence 
to penetrate and disrupt networks before they get here, working 
with our international, Federal, State, and local partners. We 
are not really a maritime organization, to be honest. We have 
had in the past, though, an outreach program to dive shops, 
because there was at one point a concern about scuba-borne 
attacks, so we did establish those links at that time.
    Chairman Lieberman. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. I have nothing 
more.
    Chairman Lieberman. Thank you, Senator Collins.
    Thanks to the three of you. This, self-evidently, is the 
first hearing this Committee has held in this 111th Congress, 
and thanks to the testimony of the three of you, who are 
extraordinarily informed and experienced in these matters, it 
really sets a tone for our ongoing work as the Homeland 
Security Committee of the Senate.
    Obviously, the Mumbai attacks remind us, as if we needed 
it, that the enemy is still out there, that they are prepared 
to strike wantonly and brutally at innocents, and that the 
United States remains a target of those terrorists.
    The other quite remarkable combination of impressions I 
have is that we have really gone a long way toward disrupting 
al-Qaeda, which was the initial enemy here, who attacked us on 
September 11, 2001, and earlier, but now there emerge other 
terrorist groups like Lashkar-e-Taiba who we have to worry 
about and remind us how much we have done since September 11, 
2001, so much of it through the Department of Homeland 
Security, the FBI, and extraordinary work by some local police 
departments, led by the NYPD, but also that we have so much 
more to do.
    This Committee is going to work this year on a Department 
of Homeland Security authorization bill. We hope we can do that 
on a regular basis to make our own statements as a Committee 
about what the priority needs of the Department are, to 
recommend to our colleagues on the Appropriations Committee 
numbers that we think will help meet those homeland security 
needs, but also to make substantive changes in policy to enable 
the Department to do a better job. That is why I urge you, as 
you go away from here, to think about whether you have 
suggestions for us as to changes in law or program, not to 
mention funding, that will help you better do the job that the 
three of you and your coworkers have done so ably already in 
protecting our homeland security in the age of terrorism. I 
thank you very much.
    We are going to keep the record of the hearing open for 15 
days if any of you have anything you would like to add to your 
testimony or if any of our colleagues or the two of us want to 
submit questions to you for the record.
    Again, my profound thanks to you for what you do every day 
and what you have done for us today.
    With that, the hearing is adjourned.
    [Whereupon, at 3:16 p.m. the Committee was adjourned.]


           LESSONS FROM THE MUMBAI TERRORIST ATTACKS--PART II

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Burris, Bennet, Collins, and 
McCain.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and welcome to the 
hearing. Let me welcome the witnesses and also welcome the new 
Members of the Committee. There has been a very refreshing 
shuffling, shall we say, of our line-up and it is great to have 
Senator McCain joining the Committee and I look forward very 
much to working with him here as we do in so many other areas.
    I welcome the recently minted, newly sworn-in Senator from 
Colorado, Michael Bennet, who brings great experience in the 
private sector and his work as Superintendent of Schools in 
Denver, and most particularly brings the irreplaceable 
experience of having spent most of his childhood in Connecticut 
and having been educated at Wesleyan, where his dad was the 
president, and even at Yale Law School. So later on when it 
comes to your time, you can speak in your defense.
    I thank everybody. Let us go right to the hearing.
    On the evening of November 26, 2008, 10 terrorists began a 
series of coordinated attacks on targets within the city of 
Mumbai, India, the largest city and financial capital of that 
great country and our very close ally. Over the next 60 hours, 
as the entire world watched, these 10 terrorists paralyzed the 
city of more than 13 million, killing nearly 200 people and 
leaving hundreds more wounded before the situation was brought 
under control, with nine of the terrorists killed and one 
captured.
    On January 8, 2009, this Committee held a hearing to 
examine the lessons learned from these attacks that could help 
us strengthen our homeland security here in the United States. 
We heard from three government witnesses representing the 
Department of Homeland Security (DHS), the Federal Bureau of 
Investigation (FBI), and the New York Police Department (NYPD). 
We examined a range of issues related to the attacks, including 
the nature of the threat posed by the terrorist group that most 
apparently carried it out, Lashkar-e-Taiba (LeT), the tactics 
used by the attackers, and the efforts to protect so-called 
``soft targets,'' and this really will be in many ways a 
critical focus of our hearing today.
    The Mumbai terrorists attacked hotels, an outdoor cafe, a 
movie theater, and a Jewish community center, places that are 
not traditionally subject to a high-level of security, which is 
why I suppose we call them soft targets. This hearing today 
will address some of those same issues with particular emphasis 
on what we here in the United States, public and private sector 
working together, can do to better protect these so-called soft 
targets.
    Our witnesses today are each from outside the government, 
representatives of the private sector, including a great 
American hotel chain and a real estate company, each of which 
owns overseas properties and manages a very significant number 
of soft targets. We also are very privileged to have two well-
respected and known experts on both terrorism and national 
security and international relations, Brian Jenkins and Ashley 
Tellis.
    The protection of these kinds of soft targets is a 
challenge to an open society, such as ours or India's. By 
definition, they are facilities that must be easily accessible 
to the general public and are often used by large numbers of 
people at one time, making them inviting targets for terrorists 
who don't care about killing innocents. But that, of course, 
does not mean that we can or should leave these targets 
undefended.
    A range of activities and investments can be deployed to 
enhance soft target security, including training for personnel, 
physical security measures, and effective information sharing 
between the government and the private sector. A basic level of 
security, of course, is also important across all commercial 
sectors to commerce itself.
    In 2007, this Committee created, within the Implementing 
the Recommendations of the 9/11 Commission Act of that year, 
the Voluntary Private Sector Preparedness Accreditation and 
Certification Program in an attempt to incentivize private 
sector companies to be certified as complying with voluntary 
professional preparedness standards, and I look forward to 
hearing from our witnesses from the private sector today about 
how that and other similar programs are working and what we can 
do, public and private sectors working together, to enhance 
that security.
    We are going to explore additional issues in this hearing, 
privileged as we are to have Mr. Jenkins and Dr. Tellis here, 
including the threat posed by Lashkar-e-Taiba, the tactics they 
used in the Mumbai attacks, the challenges of responding to 
such attack, and, of course, what we can do with our allies in 
India to increase the security that our people feel at home in 
each of our two countries.
    And now, Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. Let me begin by 
thanking you for holding this follow-up hearing on the 
terrorist attacks in Mumbai. The witnesses appearing before us 
today represent two important additional perspectives on these 
attacks. As you have mentioned, they represent non-governmental 
organizations and private businesses. The two hearings that we 
have held will provide valuable insights that can be used to 
improve and strengthen security policies in our country.
    With approximately 85 percent of our country's critical 
infrastructure in private hands, a strong public-private 
partnership is essential to preventing attacks and to promoting 
resiliency when disaster strikes. Through the National 
Infrastructure Protection Plan (NIPP), DHS and the private 
sector have cooperatively developed best practices that will 
improve our ability to deter attacks and to respond and recover 
in a crisis. By bringing together representatives from the 18 
infrastructure sectors, the NIPP process also builds and 
strengthens relationships between public and private sector 
officials that promote better information sharing.
    The plans developed through this process must not be 
allowed to just gather dust on shelves in Washington. It is 
critical that the Department and its private sector partners 
translate these planning documents into real-world action. If 
that link is not made, then even the best laid plans will 
provide little security benefit.
    The relationships fostered between the Department and the 
private sector are absolutely critical, and we learned at our 
last hearing of the work that has been done by the New York 
Police Department in cooperation with private security guards. 
I was very impressed with that program.
    The fact is that the government working alone simply does 
not have all the resources necessary to protect all critical 
infrastructure from attacks or to rebuild and recover after a 
disaster. It has to be a cooperative relationship. That is why 
effective preparedness and resiliency relies on the vigilance 
and cooperation of the owners and operators of the private 
sector facilities as well as the general public.
    I mentioned at our last hearing that Senator Lieberman and 
I authored legislation that was included in the 2007 homeland 
security law to promote the reporting of potential terrorist 
threats directed against our transportation system. We have 
already seen the benefit of reports by vigilant citizens such 
as those which helped to thwart an attack on Fort Dix, New 
Jersey. The good faith reports of other honest citizens could 
be equally important in detecting terrorist plans to attack 
critical infrastructure or soft targets like the hotels, 
restaurants, and religious institutions that were targeted in 
Mumbai. That is why I believe that we should consider expanding 
those protections from lawsuits to cover other good faith 
reports of suspicious activities.
    As the analysis of the response to the Mumbai attacks 
continues to crystalize, it is also becoming increasingly 
apparent that the Indian government failed to get valuable 
intelligence information into the hands of local law 
enforcement and the owners of facilities targeted by the 
terrorists. That is why I am particularly interested in how we 
can improve information sharing with the private sector in this 
country. The Mumbai attacks demonstrate the perils of an ad 
hoc, poorly coordinated system.
    Finally, as the Chairman has indicated, the instigation of 
the Mumbai attacks by a Pakistan-based terrorist organization 
underscores the importance of this Committee's ongoing work in 
seeking to understand and counter the process of violent 
radicalization no matter where it occurs. The U.S. Government 
must continue to press the Pakistani government to eliminate 
safe havens and to starve LeT and similar terrorist groups of 
new recruits for their deadly operations.
    I intend to explore all of these issues in depth with our 
witnesses today. I welcome our witnesses and look forward to 
hearing their testimony.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    As is our custom on the Committee, we welcome Senator 
Burris who has joined us. We will now go to the witnesses.
    We are holding this hearing to answer two questions: What 
lessons do we learn from the Mumbai terrorist attacks, which as 
we said at our first hearing certainly seem to us to represent 
a different order, if not of magnitude, certainly of tactics, a 
kind of urban jihad carried out there? And second, what can we 
in government and the private sector do together to protect 
Americans and American targets from similar activities or 
attacks here in the United States?
    We are very grateful, again, to have Brian Michael Jenkins, 
Senior Advisor at the RAND Corporation, who has been well known 
as an expert in these matters for a long time, to bring his 
experience and expertise to us this morning. Please proceed, 
Mr. Jenkins.

TESTIMONY OF BRIAN MICHAEL JENKINS,\1\ SENIOR ADVISOR, THE RAND 
                          CORPORATION

    Mr. Jenkins. Chairman Lieberman, Senator Collins, Members 
of the Committee, thank you very much for the opportunity to be 
here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jenkins with an attachment 
appears in the Appendix on page 78.
---------------------------------------------------------------------------
    Last November, while the Mumbai attack was still ongoing, 
RAND, as part of its continuing research on terrorism and 
homeland security, initiated an analysis to determine what 
lessons might be learned from that event, and that report of 
which I and others at RAND, including Dr. Tellis, are 
coauthors, has been made available to the Committee. Let me 
here simply highlight some of the more salient lessons.
    First, and I think it directly addresses your point, 
Senator Lieberman, terrorism has increasingly become an 
effective strategic weapon. I mean, terrorists are dangerous 
when they kill, but even more dangerous when they think, and 
that is the salient feature of the Mumbai attack. The 
masterminds of the Mumbai attack displayed sophisticated 
strategic thinking in their meticulous planning, in their 
choice of targets, their tactics, and their efforts to achieve 
multiple objectives. They were able to capture and hold 
international attention, always an objective of terrorism.
    They were able to exploit India's vulnerabilities and 
create a political crisis in India. They also sought to create 
a crisis between India and Pakistan that would persuade 
Pakistan to deploy its forces to defend itself against a 
possible action by India, which in turn would take those forces 
out of the Afghan frontier areas and take the pressure off al-
Qaeda, Taliban, and the other insurgent and terrorist groups 
that operate along the Afghan frontier.
    The Mumbai attacks also make it clear that al-Qaeda is not 
the only constellation in the jihadist universe, that there are 
other new contenders that have signed on to al-Qaeda's ideology 
of global terror, and this suggests not only a continuing 
terrorist campaign in India, more broadly, it suggests that the 
global struggle against the jihadist terrorist campaign is far 
from over.
    The Mumbai attack also demonstrates that terrorists can 
innovate tactically to obviate our existing security measures 
and confound authorities. We tend to focus, understandably, on 
terrorists with weapons of mass destruction, and that truly is 
worrisome. But in Mumbai, the terrorists demonstrated that with 
simple tactics and low-tech weapons, they can produce vastly 
disproportionate results. The Mumbai attack was sequential, 
highly mobile. It was a departure from the by-now-common 
suicide bombings. But the tactics themselves were simple--armed 
assaults, carjackings, drive-by shootings, building take-overs, 
barricade and hostage situations, things that we have seen 
before, but put together in this impressive complex of attacks.
    The attack was carried out by just 10 men, armed with 
easily obtained assault weapons, pistols, hand grenades, simple 
improvised explosive devices, little more than the arsenal of a 
1940s infantryman, except they had with them 21st Century 
communications technology--cell phones, satellite phones, 
BlackBerrys, and GPS locators.
    The attackers embedded themselves among civilians, using 
them not only as hostages, but as shields to impede the 
responders and to maximize civilian casualties, and I think 
this is a tactic that we have seen elsewhere and that now we do 
have to be prepared for, that is, terrorists deliberately 
embedding themselves with civilians to increase the ultimate 
body count as the response takes place.
    Terrorists will continue to focus on soft targets that 
offer high body counts and that have iconic value. I think 
there is one category that you mentioned in particular, Senator 
Collins, which is especially worrisome for us. One of the two-
man terrorist teams in Mumbai went to Mumbai's central train 
station. Now, we tend to look at the whole attack, but one two-
man team went to the central train station where they opened 
fire on commuters. The attack at the train station alone 
accounted for more than a third of the total fatalities of the 
event, and that underscores a trend, and that is, terrorists 
view public surface transportation as a killing field. Surface 
transportation offers terrorists easily accessible, dense 
populations in confined environments. These are ideal killing 
zones for gunmen or for improvised explosive devices, which 
remain the most common form of attack.
    According to analysis that was done by the Mineta 
Transportation Institute, two-thirds of all of the terrorist 
attacks on surface transportation over the last 40 years were 
intended to kill, and 37 percent of those attacks resulted in 
fatalities. Now, that compares with about 20 to 25 percent of 
terrorist attacks overall, suggesting that when terrorists come 
to surface transportation, they do view it primarily as a 
killing zone. Indeed, 75 percent of the fatal attacks involved 
multiple fatalities and 28 percent involved 10 or more 
fatalities. So the intent here clearly is slaughter.
    Terrorist attacks on flagship hotels are increasing in 
number, in total casualties, and in casualties per incident, 
and that trend places increasing demands on hotel security, 
which Mr. Orlob, who is a recognized authority internationally 
on this topic, will address.
    Pakistan continues to play a prominent and problematic role 
in the overlapping armed conflicts and terrorist campaigns in 
India, Afghanistan, and in Pakistan itself. Al-Qaeda, the 
Taliban, LeT, and other insurgent and terrorist groups find 
sanctuary in Pakistan's turbulent tribal areas. Historically, 
some of these groups have drawn on support from the Pakistan 
government itself.
    Indeed, some analysts suggest that Pakistan, since it 
acquired nuclear weapons, has been willing to be more 
aggressive in the utilization of these groups, confident that 
with nuclear weapons, it can deter or contain violence from 
going to the higher levels. On the other hand, Pakistan's 
principal defense against external pressure may not be its 
nuclear arsenal but its own political fragility, that is, that 
its government's less than full cooperation may be preferable 
to the country's collapse and descent into chaos.
    Now, the success of the Mumbai attackers in paralyzing a 
large city, a city of 20 million people, and commanding the 
attention of the world's news media for nearly 3 days certainly 
is going to encourage similar operations in the future, and 
that leads to the final question--Could a Mumbai-style attack 
happen here in the United States?--and I believe it could.
    The difference lies in the planning and scale. Assembling 
and training a 10-man team of suicidal attackers seems far 
beyond the capabilities of the conspirators identified in any 
of the local terrorist plots that we have uncovered in the 
United States since September 11, 2001. We simply haven't seen 
that level of dedication or planning skills. However, we have 
seen in this country lone gunmen and teams of shooters, whether 
motivated by mental illness or political cause, run amok, 
determined to kill in quantity. The Empire State Building 
shooting, the Los Angles Airport (LAX) shooting, Virginia Tech, 
and the Columbine cases all come to mind.
    Therefore, an attack on the ground carried out by a small 
number of self-radicalized homegrown terrorists armed with 
readily available weapons in this country, perhaps causing 
scores of casualties, while still beyond what we have seen thus 
far is not inconceivable. It is also conceivable that a team of 
terrorists recruited and trained abroad, as the Mumbai 
attackers were, could be inserted into the United States, 
perhaps on a U.S.-registered fishing vessel or pleasure boat, 
to carry out a Mumbai-style attack. This is a risk we live 
with, although I would expect our police response to be much 
swifter and more effective than what we saw in Mumbai. Thank 
you very much.
    Chairman Lieberman. Thanks, Mr. Jenkins. That was a very 
thoughtful, insightful opening statement. It struck me as you 
were describing Mumbai, it was as if you were describing a 
battle, which it was, and reminds us we are in a war. Their 
tactics and deployment of the use of weapons--if you have so 
little regard for human life that you are prepared to do what 
these people are prepared to do, there is no limit to how you 
will carry out the battle as you see it, so thank you.
    Ashley Tellis has served our government and been outside 
government in various stages of his life. He is now coming to 
us as Senior Associate at the Carnegie Endowment for 
International Peace and we welcome you this morning. I gather 
that you are just back from a trip to India.
    Mr. Tellis. Yes, I am.
    Chairman Lieberman. Thank you. Welcome.

  TESTIMONY OF ASHLEY J. TELLIS, PH.D.,\1\ SENIOR ASSOCIATE, 
           CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Tellis. Thank you, Mr. Chairman. Thank you, Senator 
Collins. I am going to speak today on the three issues that you 
invited me to address in your letter of invitation: To describe 
the nature of Lashkar-e-Taiba (LeT) as a terrorist 
organization; to assess what the threat posed by LeT to the 
United States is; and then to explore what the United States 
can do in the aftermath of these attacks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tellis appears in the Appendix on 
page 84.
---------------------------------------------------------------------------
    Let me start by talking about LeT as a terrorist 
organization, and I think the simplest way to describe it is 
that of all the terrorist groups that are present in South Asia 
today, LeT represents a threat to regional and global security 
second only to al-Qaeda. This is because of its ideology. Its 
ideology is shaped by the Ahl al-Hadith school of Saudi 
Wahhabism and its objectives are focused on creating a 
universal Islamic Caliphate, essentially through means of 
preaching and jihad, and both these instruments are seen as co-
equal in LeT's world view. A very distinctive element of LeT's 
objectives is what it calls the recovery of lost Muslim lands, 
that is, lands that were once governed by Muslim rulers but 
which have since passed to other political dispensations.
    The objective of creating this universal Islamic Caliphate 
has made LeT a very close collaborator of al-Qaeda and it has 
collaborated with al-Qaeda in Afghanistan since at least 1987. 
Its objective of recovering lost Muslim lands has pushed LeT 
into a variety of theaters outside South Asia. We have 
identified LeT presence in areas as diverse as Palestine, 
Spain, Chechnya, Kosovo, and Eritrea.
    From the very beginning, LeT was one of the principal 
beneficiaries of the Pakistani intelligence service's 
generosity because of its very strong commitment to jihad, 
which was seen by Inter-Services Intelligence (ISI), the 
Pakistani intelligence service, as being particularly valuable 
in Pakistan's ongoing conflict with India.
    LeT's objectives, however, have always transcended South 
Asia. If you look at the LeT website, if you listen to the 
remarks made by Hafiz Saeed, the leader of the LeT, and read 
its numerous publications, there are recurrent references to 
both Israel and the United States as being co-joined targets of 
LeT objectives in addition to India, and there is frequent 
reference to the Zionist-Hindu-Crusader axis, which seems to 
animate a great deal of LeT's antipathy to liberal democracy, 
which it sees as being implacably opposed to Islam.
    Today, Indian intelligence services assess that LeT 
maintains a terrorist presence in at least 21 countries 
worldwide, and this terrorist presence takes a variety of 
forms, everything from liaison and networking to the 
facilitation of terrorist acts by third parties, fundraising, 
the procurement of weapons and explosives, recruitment of 
volunteers for suicide missions, the creation of sleeper cells, 
including in the United States, and actual armed conflict.
    Despite this comprehensive involvement in terrorism, LeT 
has managed to escape popular attention in the United States 
primarily because it operates in the same theater as al-Qaeda, 
and al-Qaeda's perniciousness has essentially eclipsed LeT's 
importance. After Mumbai, that, however, may be on the cusp of 
changing.
    Let me say a few words about the threat posed specifically 
by LeT to the United States. It is useful to think of this 
issue in terms of three concentric circles: Threats posed by 
LeT to U.S. global interests; threats posed by LeT to American 
citizens, both civilian and military worldwide; and threats 
posed to the U.S. homeland itself.
    When one looks at U.S. global interests, which would be the 
first circle, it is easy to conclude that LeT has been actively 
and directly involved in attacking U.S. global interests 
through its activities in Afghanistan, Iraq, Palestine, 
Southeast Asia, and Western Europe. And in many of these 
theaters, there has been explicit cooperation with al-Qaeda, 
and particularly in Southern Asia with both the Afghan and 
Pakistani Taliban.
    Where LeT's threats to U.S. citizens are concerned, that is 
U.S. citizens worldwide, both civilian and military, these 
threats traditionally have been indirect. And until the events 
in Bombay, LeT did not direct lethal attacks on American 
citizens directly. However, it has a long history of 
cooperating with other terrorist groups who make it their 
business to attack American citizens and American interests.
    When one looks at the third dimension, LeT threats to the 
U.S. homeland, thus far, these threats have only been latent. 
LeT cells within this country have focused on fundraising, 
recruitment, liaison, and the facilitation of terrorist 
training, primarily assisting recruits in the United States to 
go to Pakistan for terrorist training, but they have not 
engaged in lethal operations in the United States as yet. This 
has been, in my judgment, because they have concluded that 
attacking targets, including U.S. targets in India, are easier 
to attack than targets in Israel or the United States.
    U.S. law enforcement has also been particularly effective 
in interdicting and deterring such attacks, particularly after 
September 11, 2001, and LeT always has to reckon with the 
prospect of U.S. military retaliation should an event occur on 
American soil.
    My bottom line is very similar to that deduced by Brian 
Jenkins. LeT must be viewed as a global terrorist group that 
possesses the motivation and the capacity to conduct attacks on 
American soil if opportunities arise and if the cost-benefit 
calculus is believed to favor such attacks.
    Let me end quickly by addressing the question of what the 
United States should do. I would suggest that we have three 
tasks ahead of us in the immediate future.
    The first order of business is simply to work with India 
and Pakistan to bring the perpetrators of the attack in Bombay 
to justice. We have to do this both for reasons of bringing 
retribution, but more importantly for reasons of establishing 
deterrence. Attacks like this cannot go unanswered without 
increasing the risk of further attacks against American 
citizens either in the United States or abroad.
    The second task that we have is to compel Pakistan to roll 
up LeT's vast infrastructure of terrorism, and this 
infrastructure within Pakistan is truly vast and directed not 
only at India, but fundamentally today against U.S. operations 
in Afghanistan, secondarily against U.S. operations in Iraq, 
and finally against Pakistan itself. We have to work with both 
the civilian regime, the Zardari government that detests the 
LeT and detests extremist groups in Pakistan, as well as the 
Pakistani military with whom we cooperate in our operations in 
Afghanistan, but regrettably still seems to view support to 
groups like LeT as part of its grand strategy vis-a-vis India.
    The third and final task before us is to begin a high-level 
U.S.-Indian dialogue on Pakistan and to expand U.S.-Indian 
counterterrorism cooperation, which unfortunately has remained 
rather languid in the last few years. We need to focus on 
intelligence sharing. We have made some progress, particularly 
in the aftermath of the Bombay attacks, but this intelligence 
sharing is nowhere as systematic as comprehensive as it ought 
to be. We also need to look again at the idea of training 
Indian law enforcement and their intelligence communities, 
particularly in the realm of forensics, border security, and 
special weapons and tactics. And finally, cooperative 
activities with India in the realm of intelligence fusion and 
organizational coordination, the issues that Senator Collins 
pointed out, too, I think would be of profit to both countries. 
These tasks are enormous and the work that we have ahead of us 
has only just begun. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Dr. Tellis. Excellent 
statement, very helpful.
    Incidentally, as you know, I think there is a program that 
this Committee has worked on that does support joint bilateral 
efforts in research and training, etc. Senator Collins and I 
have worked on that. There are eight countries in it now, but 
India is not yet one of them. There is 50-50 sharing, but very 
productive joint efforts. We are going to meet soon with the 
new Secretary of Homeland Security, Janet Napolitano, and urge 
her to initiate discussions with the Indian government to 
develop that kind of joint program, which will be mutually 
beneficial in terms of homeland security. I thank you.
    Now we go to the private sector. We are very pleased to 
have the next two witnesses with us, really in the middle of 
exactly what we want to hear about. J. Alan Orlob is the Vice 
President for Corporate Security at Marriott International and 
deals with this all the time and, as Mr. Jenkins said, is a 
recognized international expert in this area.
    Thanks for being here. We look forward to hearing you now.

   TESTIMONY OF J. ALAN ORLOB,\1\ VICE PRESIDENT, CORPORATE 
  SECURITY AND LOSS PREVENTION, MARRIOTT INTERNATIONAL LODGING

    Mr. Orlob. Thanks, Chairman Lieberman, and Senator Collins. 
It is nice to be here today. I am going to talk today about the 
attacks that occurred in Mumbai and specifically about what 
happened at the hotels and what we are doing at hotels.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Orlob with an attachment appears 
in the Appendix on page 96.
---------------------------------------------------------------------------
    On November 26, when the attacks occurred, four of the 
shooters entered the Taj Mahal Hotel. Another two entered the 
Trident and Oberoi Hotels. I traveled to Mumbai 3 weeks after 
the event with my Regional Director to see what had happened. 
We went to the Taj Hotel, expecting to spend less than an hour. 
Instead, we were there for almost three hours inspecting the 
scene of the carnage briefly and then spent considerable time 
with the Taj Group Executive Director of Hotel Operations as to 
how they could secure their hotel in the future. As reported in 
the media, he was frustrated with the intelligence provided by 
the government and the police response.
    The tactics used against the hotels in Mumbai were not new. 
A similar attack had been staged at the Serena Hotel in Kabul, 
Afghanistan a year earlier. In September, the Marriott Hotel 
had been attacked by a large truck bomb in Islamabad, Pakistan. 
The Hyatt, Radisson, and Days Inn Hotels were attacked by 
suicide bombers in Amman, Jordan, in 2005. The Hilton Hotel in 
Taba, Egypt, and the Ghazala Gardens Hotel in Sharm el-Sheikh, 
Egypt, were attacked in separate incidents. The J.W. Marriott 
Hotel in Jakarta, Indonesia, was struck by a vehicle-borne 
improvised explosive device (IED) in 2003.
    Hotels present attractive targets. In many cities, they are 
icons of commerce and tourism. Our guests include celebrities 
and diplomats. As the U.S. Government secures its buildings 
overseas, terrorists shift to softer targets, including hotels.
    Sixteen years ago, as Marriott expanded its international 
footprint, we developed a crisis management program. We wrote a 
crisis manual and designated a crisis team. We conduct 
training, including tabletop exercises. We subscribe to a 
number of commercial security services that provide 
intelligence. We have analysts based in Washington and Hong 
Kong to give us a 24-hour capability. Based on these 
assessments, we develop specific procedures for hotels to 
follow.
    Using a color-coded threat condition approach, we direct 
hotels to implement those procedures. Under Threat Condition 
Blue, our lowest level of enhanced security, we have nearly 40 
procedures. Threat Condition Yellow adds additional security 
layers. At Threat Condition Red, our highest level of security, 
we screen vehicles as they approach the hotel, inspect all 
luggage, and ensure everyone goes through a metal detector.
    In response to our risk assessments, we have added physical 
security measures, particularly in high-risk locations, 
including window film, bollards, and barriers. X-ray machines 
are present in many of our hotels, and where appropriate, we 
employ explosive vapor detectors and bomb-sniffing dogs. We 
have developed advanced training programs for our security 
officers working in high-risk locations. In the wake of the 
Mumbai attacks, we recently developed an active shooter 
program, combining physical security with operational security 
and awareness programs.
    Last September, the Islamabad Marriott was a victim of a 
terrorist attack. This hotel was operating at Threat Condition 
Red. On September 20 at 8 p.m., a suicide bomber drove a large 
dump truck to the hotel. As he made a left turn into the 
driveway, he shifted into first gear and accelerated, 
attempting to drive through the barriers. The hotel was using a 
combination of a hydraulic barrier coming up from the pavement, 
commonly called a Delta barrier, and a drop-down barrier to 
stop vehicles before they were inspected. These barriers 
contained the vehicle and it was not able to move further. When 
the bomber detonated his charge, 56 people were killed. Thirty 
of them were members of our hotel staff. There were nearly 
1,500 people in the hotel at the time. It was Ramadan and they 
were dining, breaking their fast. Our security measures saved 
hundreds of lives.
    Dr. Rohan Gunaratna, a noted terrorism researcher in 
Singapore, wrote an article shortly afterwards calling the 
Islamabad Marriott ``the world's most protected hotel.'' We had 
196 security officers, 60 of them on duty at the time, 62 
closed-circuit television (CCTV) cameras looking both inside 
and outside the hotel, and bomb-sniffing dogs. It was the type 
of security that you would never expect to see at a hotel. 
Terrorist tactics continue to evolve. Our security must evolve, 
as well.
    In my department, we study terrorist attacks against 
hotels. The attacks in Mumbai presented several lessons to be 
learned. It was widely reported that the terrorists had been in 
the hotel for several months, at times posing as guests, taking 
photographs, and learning the layouts of the hotels. We believe 
awareness training should be conducted for employees to 
understand what may be suspicious and should be reported. We 
recently developed a program to place discipline-specific 
posters in non-public areas of the hotels outlining suspicious 
activities to increase awareness. The housekeeper cleaning a 
room who finds diagrams of the hotel should report it. In high-
threat areas, a covert detection team should be employed which 
is specifically trained to identify individuals conducting 
hostile surveillance.
    According to media reports, the police responding were not 
familiar with the building layout. Plans provided to them were 
outdated and did not indicate where recent renovations had 
taken place. We believe hotel management should develop a 
relationship with local authorities and conduct joint training 
exercises. Current building plans with detailed photographs and 
video should be provided to the authorities.
    The Taj Hotel management reported that intelligence agents 
had provided information which resulted in the hotel lowering 
their security measures. We believe hotels should develop 
independent intelligence analysis capabilities. Security 
professionals should interpret intelligence and determine 
mitigation measures. Hotel managers in most cases are not 
trained in intelligence analysis and do not understand 
countermeasures necessary to deter or mitigate an attack.
    The hotel lacked physical security measures which would 
have made it more difficult for the attackers. This included 
multiple entrances, lack of a sprinkler system, and open 
stairways. We believe hotel designs should consider security 
features early in the architectural planning stage.
    I hope my comments have been helpful. I am happy to provide 
more detail, and thank you for inviting me to testify.
    Chairman Lieberman. Thanks, Mr. Orlob. They have been very 
helpful. We look forward to the question period.
    Finally, we have Michael Norton, who is the Managing 
Director of Global Property Management and Operations of 
Tishman Speyer. Thanks for being here.

 TESTIMONY OF MICHAEL L. NORTON,\1\ MANAGING DIRECTOR, GLOBAL 
              PROPERTY MANAGEMENT, TISHMAN SPEYER

    Mr. Norton. Thank you, Chairman Lieberman, Senator Collins, 
and Members of the Committee for this invitation to address the 
Committee and discuss lessons learned from the Mumbai terrorist 
attacks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Norton appears in the Appendix on 
page 103.
---------------------------------------------------------------------------
    I am responsible for managing and directing all global 
property management activities at Tishman Speyer. Tishman 
Speyer is one of the leading owners, developers, operators, and 
fund managers of first-class real estate in the world. Since 
1978, Tishman Speyer has acquired, developed, and operated over 
320 projects totaling over 115 million square feet throughout 
the United States, Europe, Latin America, and Asia. Some of our 
properties include New York's Rockefeller Center, the Chrysler 
Building, and the Met Life Building.
    Today, our in-house property management specialists are 
responsible for more than 200 buildings reflecting 84 million 
square feet of Class A office, residential, and mixed-use 
properties in 34 markets across the world. In 2005, Tishman 
Speyer became the first U.S. real estate company to sign a 
joint venture agreement to develop in India. Today, we are 
pursuing projects in multiple cities, including Mumbai, New 
Delhi, Bangalore, Hyderabad, Tellpur, and Chennai.
    I am testifying today on behalf of the Real Estate 
Roundtable, where our company's Co-Chief Executive Officer, 
Robert Speyer, is chair of the Homeland Security Task Force. I 
am also testifying on behalf of the Real Estate Board of New 
York and Building Owners and Managers Association (BOMA) 
International, two organizations where I personally sit on 
senior governing boards and councils. In addition to my work 
with these organizations, I am also a Lieutenant Colonel in the 
Marine Corps Reserve. Next month, I enter my 25th year of 
service.
    Looking forward, for the owners and operators of high-
profile commercial buildings, there are at least five areas of 
continued concern in light of these Mumbai attacks.
    One, the need for ever-improved communications 
capabilities, both in-house and with local law enforcement and 
emergency response agencies.
    Two, the still not fully tapped potential of employees at 
commercial office buildings to help law enforcement and 
homeland security officials detect threats and assess 
vulnerabilities.
    Three, more fully addressing our interdependence and co-
location with mass transit and other major soft targets.
    Four, acknowledging and improving our role as the first 
responders in the period between the initiation of an attack 
and the arrival of law enforcement.
    And finally, acknowledging our dependence on well-informed 
and well-equipped law enforcement and homeland security 
emergency officials for effective deterrence and response.
    Shortly, I will suggest some specific areas for making 
progress in each of these areas, but first, let me talk a 
little more about the changing threat environment and some of 
the steps our company and others in the industry have taken 
since September 11, 2001, to better manage those.
    Given the primary role of local law enforcement in 
deterring terrorists from commencing with commando-style 
attacks, the core mission for building owners in the event of 
such an attack should be to limit loss of life and property for 
as long as it takes law enforcement to control the situation. 
To that end, security and building staffs will be acting as 
first responders. It is important to remember, however, that 
unlike traditional first responders from the police force, our 
personnel are unarmed. In our view, this critical interim role 
requires more attention.
    Building personnel can and should be trained to identify 
suspicious behavior, especially behavior consistent with 
surveillance or casing of our facilities. When we look at some 
of the post-September 11, 2001, office building initiatives 
that are now set in place, we see many that will assist us in 
meeting our goal of protecting the lives of our tenants. These 
initiatives or practices can be organized into six basic 
categories: Communications, training programs, emergency 
response, target hardening techniques, information sharing, and 
coordination initiatives. While all of these play a significant 
role in managing the risk of the Mumbai type of an attack, I 
would like to focus principally on communications, training, 
and target hardening.
    The single greatest lesson learned from September 11, 2001, 
was the need for robust local communication channels with 
emergency response officials. We have made significant progress 
in achieving this goal in many of the larger cities that we own 
properties in. New York City has, in my opinion, become the 
gold standard in this regard.
    As an example, the NYPD gave a briefing on the Mumbai 
incident to the security directors just one week after the 
attacks that included a live commentary from an NYPD captain 
who was still on site in India. To varying degrees, this kind 
of public-private communication is happening in Washington, DC, 
Chicago, and Los Angeles. More can and should be done to 
improve these programs in those cities and to bring a similar 
spirit of partnership to other U.S. cities.
    Since September 11, 2001, the security industry has 
improved the training of its employees in key areas, such as 
surveillance techniques, observation skills, and building 
layout designs. For example, the Service Employees 
International Union (SEIU), the largest services union in North 
America, has developed a 40-hour course for their officers in 
New York City, and I think they are going to adopt that in 
other cities, most recently Washington and San Francisco.
    Almost every terrorist attack requires a great deal of 
planning and preparation, including site visits to determine 
how the target is protected, both during business hours and 
after business hours. If trained in how this surveillance is 
likely to occur, our security personnel will be in a better 
position to act as the eyes and ears of the police and to 
detect this kind of suspicious behavior.
    Local law enforcement also needs to train in a way that is 
geared toward specific types of buildings or even specific 
iconic structures. As Police Commissioner Ray Kelly said in his 
testimony before this same Committee earlier this month, in 
Mumbai, the attackers appeared to know their targets better 
than the responding commandos. At the very least, local police 
should be aware of the layout of all high-profile buildings and 
who owns or manages them. DHS has conducted threat assessments 
on many iconic properties, and in some but not all cities, 
local police do that, as well. I believe this is an extremely 
important pre-attack planning need. Just as terrorists conduct 
pre-raid surveillance acts and intelligence gathering 
operations, we need to do the same.
    After September 11, 2001, building owners have hardened 
many commercial office properties in ways that could assist in 
defending against a Mumbai-type of attack, but we must be 
realistic and recognize that our security officers are all 
unarmed and most building lobbies are accessible to the public. 
Well armed, walking terrorists would have no trouble gaining 
access. This is why the key to preventing a Mumbai attack in 
major cities will be our reliance on the quick actions of our 
local police and regional law enforcement.
    Hardening measures are shared through the exchange of best 
practices, both in the United States and sometimes in our 
counterparts overseas. One London program that has gained the 
support of the private sector is called Project Griffin. Under 
this program, the City of London Police and the Metropolitan 
Police train private sector security officers in a wide range 
of procedures to combat urban terrorism, offer them weekly 
intelligence briefings, and deputize them during periods of 
high-threat alerts to perform certain functions.
    At the beginning of my testimony, I mentioned five key 
areas where we need to continue to make progress. Taking these 
points one by one, let me offer some quick suggestions.
    Communications and information sharing: Our goal in the 
commercial real estate high-rise office industry is to best 
protect the lives of our tenants and visitors until the local 
law enforcement can appropriately deal with the situation. To 
that end, effective information sharing partnerships with local 
officials will be critical. Programs such as the NYPD Strategic 
Home Intervention and Early Leadership Development (SHIELD) 
program and Project Griffin in London need to become the norm 
in major urban areas. Federal and State policy should encourage 
the launch of such programs on an expedited basis.
    Terrorism awareness training and exercise: Local law 
enforcement and emergency response officials should also be 
encouraged by State and Federal policies to train and exercise 
jointly with the private sector. Just as we need to learn more 
about likely emergency response actions in an emergency, 
government officials need to better understand our facilities 
and our personnel's capabilities and limitations in a crisis.
    Interdependence with mass transit: One specific area that I 
recommend would be further advanced is joint training regarding 
the interdependencies, including co-location of iconic 
buildings and mass transit facilities. Specifically, we need to 
develop effective tabletop exercises between local police, 
fire, medical, public health, and our building staff using 
scenarios based in part on the Mumbai-type attacks that affect 
the government and private sector. We would be happy to offer 
use of our buildings and some similar iconic buildings as the 
site for such an exercise in the future and we encourage other 
building owners to undertake similar joint exercises with mass 
transit officials.
    I have mentioned that our building staff and security 
officers will be the first responders if a terrorist targets 
our office environment. Improving training of building staff on 
building operations, emergency procedures, first aid, and a 
means to effectively evacuate, shelter in place, or close off 
sections of a property is crucial. In addition, I believe now 
is the time to consider offering to these brave men and women 
the special financial and medical coverage that other first 
responders, like police and fire, can obtain in the event of 
terrorist events.
    While I know all of you understand this, it bears 
repeating. At the end of the day, the private sector has a 
support role in dealing with Mumbai-type of attacks. The 
primary responsibility is with local law enforcement. We have a 
huge stake as an industry in programs including Federal 
programs that offer those brave men and women the training, 
cutting-edge intelligence, and equipment they need. I believe 
we can and should do more in that regard.
    This concludes my oral testimony. Thank you.
    Chairman Lieberman. Thanks, Mr. Norton.
    We will do 6-minute rounds of questions. Both of you have 
described very active programs for Marriott and Tishman Speyer. 
Am I right to conclude that almost all of this is self-
generated and not incentivized by government in the first 
place?
    Mr. Orlob. In our case, that is certainly true.
    Chairman Lieberman. Yes. Mr. Norton.
    Mr. Norton. A little of both, more so private though, and 
like I said, in the New York sector, we get a lot of 
participation with NYPD. So we work closely with them.
    Chairman Lieberman. So New York is, in a way, an exception, 
or as you said, the gold standard. That is the one case where 
you are working very closely with a governmental entity.
    Mr. Norton. More so than other markets, yes.
    Chairman Lieberman. Have you had any contact with the 
Department of Homeland Security in Washington in the 
development of the security programs that you have? Mr. Orlob.
    Mr. Orlob. About a year ago, there were a few of us in the 
hotel industry that formed a group called the Hotel Security 
Group, and basically, we took the 10 biggest hotel companies 
and reached out to their corporate security directors. So we 
brought them in, and the purpose of it is information sharing. 
But also, we reached out to the State Department's Overseas 
Security Advisory Council (OSAC), and we also reached out to 
DHS. DHS came to us and explained to us that the training that 
they offer, especially in surveillance detection, is the type 
of things we were looking for. So they have reached out and 
they have offered to provide those programs.
    Chairman Lieberman. How about you, Mr. Norton?
    Mr. Norton. We have. In the post-September 11, 2001, era 
DHS has done threat assessments on some of our iconic assets 
and we have worked closely with them on evaluating those and 
have used some of their standards to implement while we 
purchase other assets.
    Chairman Lieberman. I know that a number of organizations 
have issued standards and guidelines to help the private sector 
secure critical infrastructure. I wanted to ask you now to 
indicate the extent to which industry associations have 
assisted you in the development of the security steps that you 
have taken.
    Mr. Norton. I think it is more not so much industry, but 
working together as real estate companies, so sharing best 
practices, sitting in groups like the Real Estate Board of New 
York with other owner-operators, and every day buildings trade 
hands, trade ownership. We are purchasing, we are acquiring, we 
are developing, and it becomes best practices. So it is more of 
internally within the private sector we are sharing best 
practices. We are doing our own threat assessments and we learn 
lessons from the blackout we had in 2003 and from obviously the 
post-September 11, 2001, era that we work in. There is more so 
of that. And there are some industry associations. BOMA 
International has guidelines that they provide us and that we 
live by and that we look at as we execute certain things in our 
buildings.
    Chairman Lieberman. Do you think that the security measures 
that Tishman Speyer have taken are typical of large real estate 
entities in our country or is your company unusually active and 
aggressive in this area?
    Mr. Norton. I think that they are very similar when you put 
it in a Class A format.
    Chairman Lieberman. Right.
    Mr. Norton. And there are five or six real Class A 
operators of that kind of real estate and I think they are 
pretty much using the same standards and methods, yes.
    Chairman Lieberman. But probably others have not, in part, 
I assume because of the cost, is that right?
    Mr. Norton. Everything is market-driven and cost is the 
key. Tenants are escalated the costs of security, cleaning, 
engineering, and it is what the tenant is willing to pay. As 
you know, in Washington, DC, you can walk freely into buildings 
without turnstiles, but in New York City, you can't walk freely 
in without checking an ID, then getting a pass to go through a 
turnstile. So it is a different flavor.
    Chairman Lieberman. Correct. And I assume, just to make the 
point, that part of why your company is investing so much money 
in security also has to do with a financial calculation, that 
the security itself is a commercially attractive asset.
    Mr. Norton. Absolutely. It is an investment, and we hope to 
attract Fortune 500 tenants to those types of assets, who then 
pay higher rents because they are in a secure environment.
    Chairman Lieberman. Yes. Mr. Orlob, talk a little about the 
hotel industry. I also was fascinated because sometimes big 
things are done in little ways, the idea that you would train 
the housekeepers to be alert to what they may observe in the 
course of just cleaning up a room. As you said, if they see 
blueprints of a hotel, that should ring some alarm bells and 
they should report. Are all of Marriott's employees now being 
sensitized to look for that kind of information?
    Mr. Orlob. Well, certainly they are in what we call high-
risk environments.
    Chairman Lieberman. Yes.
    Mr. Orlob. When we look around the world, we have about 40 
of our hotels at what we call Threat Condition Red.
    Chairman Lieberman. Right.
    Mr. Orlob. I think we have 42 of our hotels at Threat 
Condition Yellow, and I think we have close to 70 hotels at 
Threat Condition Blue. So these are the hotels that have 
enhanced security. We started the program there, rolling it out 
to those hotels because we wanted them to get that information 
right away so that those employees are sensitized to it. But as 
we continue to roll this program out, we want to get this out 
to all our employees.
    Chairman Lieberman. Dr. Tellis, let me just ask you--this 
is a big question and I don't have much time left, but I 
thought it was significant that you pointed out that Lashkar-e-
Taiba is now second to al-Qaeda in that part of the world. But 
also, because it is very important, the first news reports, 
some of them indicated that this is a group that was focused on 
Kashmir and the dispute between India and Pakistan over 
Kashmir. Now, you are saying, and I know you are accurate here, 
that all you have got to do is listen to them and read their 
stuff. This is a much more global Islamist group, correct? And 
that is why the relevance to the United States--although as you 
said, they are here, but the threat is latent--is important for 
us to focus on.
    Mr. Tellis. That is right, and the record, I think, speaks 
even more clearly than what they say, because LeT started 
operating in Afghanistan in 1987. It moved into Kashmir only in 
1993, and it did so really at the behest of the ISI. The track 
record of the group's evolution clearly shows that Kashmir came 
somewhat late in the day as an operational theater to them.
    Chairman Lieberman. Right.
    Mr. Tellis. They really have a global agenda.
    Chairman Lieberman. You make an important factual point. To 
the best of your knowledge, Lashkar-e-Taiba was not founded by 
ISI. I take it that it was founded before, but I gather at some 
point a link was made, is that correct? Because some have said 
it was founded by ISI.
    Mr. Tellis. No. It was founded by three individuals, one of 
whom was supposedly a mentor to Osama bin Laden. But it became 
very quickly tied to ISI because its motivations and its world 
view were very compatible with the leadership of ISI at that 
time.
    Chairman Lieberman. Right. Thanks. My time is up. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman, I would note that 
we have a vote on. Do you want us to proceed for a time, or how 
would you like to----
    Chairman Lieberman. Yes. I will tell you what. If we can do 
it, why don't you proceed. I will go over----
    Senator Collins. OK.
    Chairman Lieberman [continuing]. And hope to come back in 
time, and we will keep going as long as people are here.
    Senator Collins. Thank you.
    Chairman Lieberman. OK. Good.
    Senator Collins [presiding]. Mr. Jenkins, you mentioned 
that the attack on the train station in Mumbai accounted for 
more than one-third of the deaths and you talked about the fact 
that if you look at other terrorist attacks around the world, 
mass transit is frequently a target because of the number of 
casualties. How would you evaluate the security that we have in 
the United States and the priority that we are placing on 
securing train stations and other areas of mass transit?
    Mr. Jenkins. The challenge in protecting public surface 
transportation in this country is the fact that it is public, 
that is, we have to begin with the idea that this is a public 
facility that is supposed to be convenient for passengers to 
use. It is an even greater challenge than aviation security. We 
can't take the aviation security model and apply it to surface 
transportation. We now employ 45,000 screeners to screen 
approximately two million passengers a day boarding airplanes 
in this country. The number of people who use public surface 
transportation in this country is many times that, so cost, 
manpower, and delays would prohibit that kind of model.
    Surface transportation is clearly a vulnerable target. It 
is an attractive target. What we are looking for are mechanisms 
with which we can do several things. We must increase the 
deterrence and preventive measures without destroying public 
surface transportation, and that takes both capital investment 
and training, and indeed, according to some, we are behind in 
funding that, in closing that vulnerability.
    We also need to be able to put into place mechanisms that 
provide a platform so that in high-threat environments, or say, 
in the immediate wake of something like the attacks in Mumbai, 
London, or Madrid, we can go up several notches for our transit 
systems but have the training and platforms for doing that. So 
if we have to increase the number of patrols or go to selective 
searches, we can do that, and we are trying to do that now.
    The third area has to do with response, crisis management, 
and things of that sort, and we are behind in that, and I think 
the operators can do more than that. There is a recent DHS 
report out that says that--we reported on this for the first 
time--we are probably behind in developing our emergency 
planning and response capabilities.
    Senator Collins. Thank you.
    Mr. Orlob, I, too, was struck by the statement in your 
testimony where you talked about training the housekeepers who 
are in high-risk hotels to report suspicious activity, such as 
finding diagrams of the hotel in a room. I believe that one of 
our principal weapons in detecting and disrupting a terrorist 
attack is vigilant citizens reporting suspicious activity.
    I mentioned in my opening statement that to encourage that 
kind of reporting in the transportation sector, the Chairman 
and I authored a bill that became law to give immunity from 
lawsuits if someone in good faith reports to the proper 
authorities evidence of a terrorist plot or other suspicious 
activity. Currently, however, the law is very limited. It only 
applies to reports of suspicious activity in the transportation 
sector. Would you support expanding that law to provide 
immunity from lawsuits to individuals who in good faith report 
suspicious activities to the appropriate authorities? Do you 
think it would help your efforts?
    Mr. Orlob. I think that it makes a lot of sense. I am sure 
there is some sensitivity among some of our employees to report 
things like that just because of what you are talking about, 
and I think if they knew that they were not subject to any type 
of lawsuit or prosecution, that certainly that makes a lot of 
sense.
    Senator Collins. Mr. Norton.
    Mr. Norton. My only real exposure to that is obviously in 
New York City, they have a campaign--if you see something, say 
something--and it is inundated throughout the city. Again, I 
think it would be helpful to educate people as to what does 
that mean and am I protected if I am going to make a phone 
call. But frankly, I think, in New York, people are very quick 
and willing, especially in the post-September 11, 2001, era, to 
make that call. We have a lot of tourists that come, take lots 
of pictures, lots of videos, but when they are doing things in 
railway stations or in loading docks, people make that phone 
call. So I think that you have to encourage it. You have to 
encourage people to make that call. It will save lives.
    Senator Collins. Thank you. Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Madam Chairman, and I thank the 
witnesses for being here.
    Mr. Jenkins, I will read your book immediately. I thank you 
for your important contribution and that of RAND to helping us 
understand this attack. I do think we should highlight the fact 
that it is the first attack that has been as well orchestrated, 
as well trained, as well equipped. They obviously outgunned 
until the commandos showed up. They weren't necessarily suicide 
individuals, that they were able with just a handful of people 
to hit 10 targets. I think there are a whole lot of lessons 
here that maybe we haven't paid that much attention to.
    Mr. Jenkins, what do you think is the danger, in going 
along with your book, that the terrorist organizations within 
Pakistan might be able to obtain the nuclear weapons that we 
all know Pakistan has?
    Mr. Jenkins. I think it is a real concern. We do receive 
regular reassurances from the Pakistani authorities that they 
have the nuclear weapons under tight control, but one does 
worry. When we look at the nexus in Pakistan between organized 
crime figures like Dawood Ibrahim and terrorist organizations, 
and we look at the black markets that were created to support 
Pakistan's own nuclear program through A.Q. Khan, I mean, this 
is a set of connections between organized crime, government 
authorities, and terrorist organizations that does raise the 
specter of the possibility of large-scale finance and real 
concerns if they move into weapons of mass destruction.
    I don't want to exaggerate the threat because I still do 
believe that terrorists get a tremendous amount of mileage out 
of doing low-tech things without attempting to do some of the 
more technologically challenging things, and the Mumbai attack 
was, as I mentioned before, an example of basically small-unit 
infantry tactics that paralyzed a city of 20 million people for 
the better part of 3 days.
    Senator McCain. And obviously knew the territory, at least 
far as the Taj Hotel is concerned, a lot better than any of the 
people who were trying to eliminate them.
    Dr. Tellis, very quickly, and I apologize because we have a 
vote going on, you said the terrorists have got to be brought 
to justice and the Pakistanis have to roll up the terrorist 
organizations, but particularly LeT. What do you think the 
chances of that happening are? It hasn't yet.
    Mr. Tellis. The chances are remote, but they can't afford 
to keep it that way because we have essentially seen this game 
evolving now for close to 20 years and the costs of these 
terrorists staying in business have progressively increased.
    Senator McCain. Does that then over time increase the 
likelihood that the government of India will feel they may have 
to take some action?
    Mr. Tellis. Yes, sir.
    Senator McCain. It is a real danger.
    Mr. Tellis. It is a real danger. In fact, the current 
crisis is not over yet.
    Senator McCain. I thank you, Madam Chairman. I apologize. I 
have about 20 more questions, but I appreciate the witnesses 
and their testimony here this morning. Thank you.
    Senator Collins. We will suspend the hearing just briefly 
until Senator Lieberman returns. Thank you.
    [Recess.]
    Chairman Lieberman [presiding]. Thanks very much. The 
hearing will resume. Thanks for your patience and 
understanding.
    I gather Senator McCain was in the middle of his 
questioning, but we will wait until he comes back and then 
bring him on.
    Senator Bennet, it is an honor to call on you for the first 
time in the Committee. We are very pleased that you have joined 
the Committee. You bring considerable talents both to the 
Senate and to the Homeland Security and Governmental Affairs 
Committee, and we look forward to working with you. Thank you 
very much.

              OPENING STATEMENT OF SENATOR BENNET

    Senator Bennet. Thank you, Mr. Chairman. I want to say 
thank you to you and the staff for being so welcoming to me as 
the newest Member, and to Senator Collins, as well, for her 
leadership in the Committee. I look forward to serving.
    I had a couple of unrelated questions. One, Mr. Jenkins, 
you mentioned that as we look at Pakistan, the choice might be 
less than full cooperation on the one hand versus, I think you 
described it as internal chaos on the other hand, and I 
wondered whether we can glean anything from their response to 
the attacks in Mumbai to give us some indication of whether 
those remain our only two choices or what a third choice might 
be if there is one.
    Mr. Jenkins. The government of Pakistan did make some 
response in doing some things under great pressure. Their 
response is certainly not regarded as adequate by the Indian 
authorities.
    One of the problems that the Pakistani government also 
faces is public opinion in Pakistan itself. I mean, according 
to public opinion polls, the No. 1 long-term national security 
threat to Pakistan is the United States. No. 2 is India. And 
you go way down the list before you come to al-Qaeda, the 
Taliban, LeT, and the other groups, so that the government of 
Pakistan really has to almost defy public opinion to do 
something. Moreover, we do have the reality that the civilian 
elected government's authority over the Pakistan military and 
intelligence services is limited. So we can keep on pressing 
them, as we should, but I think we have to accept that this is 
going to be a long-term diplomatic slog before we really can 
enlist Pakistan as being fully cooperative against terrorism.
    And, by the way, the problem didn't begin with this 
government or even the previous government. It was recognized 
by the National Commission on Terrorism in 1999 and 2000 that 
Pakistan was not fully cooperating against terrorism.
    Senator Bennet. In view of that, it is obviously hugely 
problematic since that is where these groups are being 
harbored. What is it that can be done? I mean, we have got the 
diplomatic slog on the one hand, but what steps are we taking 
or should we take, or India take, to protect these targets 
knowing that we won't get the sort of cooperation immediately 
that we need from the Pakistani government or military?
    Mr. Jenkins. I think we have to work directly with the 
military to bring about at least a shift among some in the 
military to increase cooperation in going after these groups 
along this turbulent tribal area, in this border area. We do 
have some relationships that have been developing. I think our 
long-term goal there is to create a more effective military 
capability to deal with these groups.
    Pakistan has been somewhat schizophrenic. At times, it has 
tried to make deals in some of these turbulent areas and 
negotiate ceasefires. That hasn't worked. At times, it has gone 
in with military force, and its own forces haven't fared well. 
I think we can do a lot more in terms of creating with military 
assistance some new relationships and a long-term effort to 
create some new capabilities. We have put billions of dollars 
into this and it is slow going. Dr. Tellis will have more to 
add about this, but I am not wildly optimistic in the short 
term.
    Senator Bennet. Dr. Tellis, would you like to comment?
    Mr. Tellis. I think it is going to be a long slog, but 
Pakistan's own positions, or at least the army's positions with 
respect to terrorist groups has changed over the years. For the 
first time now, the Pakistan army, both the Chief of Army Staff 
and the head of the ISI, are publicly willing to admit that 
Pakistan's central problem is terrorism and not India. This is 
a big shift.
    There is still a lag, however, between that appreciation 
and actually doing something about it, and so the hope is that 
if they are successful, at some point, there will be a catch-up 
and the rhetoric and reality will somehow come together. But 
this will take time, and so we have to keep at Pakistan, and it 
will be a combination of both incentives and pressure. I don't 
think we have a choice.
    But the point I want to make is that, historically, when 
the Pakistani state, meaning primarily the army, has made the 
decision to crack down on certain terrorist groups, they have 
actually done it very effectively. And so it is simply a matter 
of getting the motivational trigger right, and that will 
require a certain degree of comfort that they have with us and 
with the Indians, and with a bit of luck, we will move in that 
direction.
    Senator Bennet. Mr. Chairman, I am about out of time, but I 
had one other question.
    Chairman Lieberman. No, go right ahead. Since it is only 
you and me, take some time.
    Senator Bennet. Thank you. And more on topic for today, 
when I read the materials, it seems that there was a general 
sense that something major was going to happen and that was not 
communicated, that there was a lapse of communication of some 
kind between India and others, that there was no communication, 
it appears, between India and authorities in Mumbai, and 
undoubtedly none with the private sector that was there.
    I wonder, sort of extrapolating from all that and not 
concerning ourselves so much with the history of that 
particular event, as we think about our potential soft targets 
in the United States--and we still have yet to really develop a 
consciousness around this, I think we heard some discussion 
about the hardening of targets in New York and other places, 
but it is not the general norm. How do we need to think about 
improving our communications so that people really do 
understand when there is risk and fill those gaps between the 
Federal Government, local law enforcement, and our private 
sector?
    Mr. Jenkins. We have improved in information sharing. I 
mean, what India learned in Mumbai is the problem of connecting 
the dots. They had dots. They didn't connect them. We had that 
driven home to us in September 11, 2001, and clearly there has 
been a great deal of improvement. The amount of information 
that moves around between Federal authorities, State 
authorities, local and tribal authorities now is much greater 
than it was before, although it is still a challenge. I don't 
think we can say with confidence that we are delivering the 
necessary information to those who need it to make decisions on 
the front line in every case, but it has improved.
    I think we do have to make a distinction between 
information and intelligence. Intelligence is concerned with 
who did it and how we know that, and that is not what many of 
our local operators or local police departments even need to 
know. What we need to know in these cases is what happened and 
how they did it. Who did it doesn't make any difference at the 
local operator level when you are making decisions about 
increasing security and doing these things. So that is 
something we can continue to work on.
    We have, I think, funded the fusion centers. These are 
really all-hazard response organizations. They do have an 
intelligence function, but they are primarily intended to 
respond to all hazards. Those need continued support, but we 
need to enhance local capabilities further. We can't think of 
this as a Federal top-down, hub-and-spokes system. We have to 
create more capability at the local level, and our local 
governments and State governments are really strapped. So we 
need to make that happen.
    We need to probably even elevate information sharing to a 
higher level of priority within DHS for the new Secretary to 
really push hard on that as a priority area. We have some 
initiatives which really merit support and can fall into the 
bureaucracy, some of these shared mission communities and other 
mechanisms for collaboration that are in danger of being 
missed, and we need to do that.
    And I think, finally, in terms of information sharing, we 
really need to take a fundamental look at our clearance and 
classification system. We are still operating with clearance 
procedures that were created during the Cold War to deal with a 
different spectrum of threats. We are now dealing with nebulous 
networks, fast-moving developments, and we have to come up with 
a much more streamlined process for moving intelligence and 
information around in this system than this somewhat cumbersome 
thing that we have inherited from half a century ago. That has 
become an impediment now.
    Senator Bennet. Mr. Chairman, that is all I had. I do have 
a statement that, with your permission, I would like entered 
into the record.
    [The prepared statement of Senator Bennet follows:]
                  PREPARED STATEMENT OF SENATOR BENNET
    Good morning. Thank you, Chairman Lieberman and Ranking Member 
Collins for holding this hearing. I respect the leadership you both 
have exercised over this Committee, and I am honored to be its newest 
Member. In addition, I'd like to thank our witnesses for being here 
today for this second hearing on the November 2008 Mumbai terrorist 
attacks.
    I would first like to offer my heartfelt condolences to the 
families of all 172 victims of the terrorist attacks in Mumbai. As 
someone who spent some time in India during my youth, I was 
particularly troubled by these senseless attacks, and I sympathize with 
all those who have been affected by these acts of terrorism.
    The attacks on Mumbai involved new tactics and new technology 
designed to inflict maximum damage on the public. We have learned that 
the attacks employed uniquely coordinated teams of attackers, targeting 
multiple and changing locations--a departure from past suicide bomber 
attacks. They used cell phones and GPS, and, throughout the 62-hour 
ordeal, the attackers remained in contact with remote ``handlers.'' In 
addition, the attackers targeted hotels and other public locations--
``soft targets'' known for tourism and commerce.
    As we examine what happened in Mumbai, we know that we cannot sit 
back and simply hope it will never happen again. It is the unfortunate 
reality of our time that groups of extremists are bent on destroying 
the safety, security, and ideals America and her partners hold dear.
    Armed with the hope that we will one day defeat these terrorists, 
we must do everything we can to keep our country safe. As we study the 
trends used in the attack in Mumbai and elsewhere, I hope we can help 
develop a set of best practices for intelligence authorities, local law 
enforcement officials, and private businesses in the U.S., India, and 
other countries that will help us make the world a safer place.
    Thank you.

    Chairman Lieberman. Without objection, so ordered. Thank 
you, Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman.
    Chairman Lieberman. Not at all. We will do another round.
    I appreciate what you said, Mr. Jenkins. I think it is an 
important point as we try to sort out responsibilities that on 
these matters of protecting soft targets, there is no question 
that this is initially private sector because most of these are 
privately-owned. The Federal Government has a role here, which 
I want our Committee to explore as to what we can do--both of 
you made suggestions--to incentivize or assist the private 
sector in preparedness and upgrading security on soft targets.
    But then the real work has to be done at the local level. 
That is the natural place. It is certainly obvious. As our 
friends in India found out, if you are dealing with a central 
national response, it is hard to get them there in time. We 
would like to think we would get our people there more quickly 
than happened in Mumbai, but still, the first order of 
response, as Commissioner Kelly made very clear when he was 
with us, is local, and the natural interaction, the much easier 
interaction between law enforcement and the private sector is 
at the local level. It is just not going to happen nationally.
    So part of what we have to decide--I agree with you. I 
repeat, I think Commissioner Kelly and the NYPD are the gold 
standard. There are others--Chicago, Los Angeles, Washington--
doing well, but then there are a lot of other places in this 
country which have soft targets where the local police simply 
have not had the capacity to get involved, and that is where I 
would like to see--we are feeling strapped, too, these days 
financially--how we can assist the local police departments in 
assisting the private sector in getting this done.
    While you were out, Senator Bennet questioned. I have 
started a round and I will go right to you.
    Senator Collins. Thank you.
    Chairman Lieberman. Let me ask you just in that regard, and 
I will start with Mr. Norton because you had some suggestions 
on this, to develop a bit more what you have in mind that the 
government can do in those particular areas that you focused 
on--communications, training, target hardening--to either 
incentivize or assist the private sector.
    Mr. Norton. I think it is important to just know in the 
industry itself, security officers have about 110 to 125 
percent turnover rate. So from our perspective, we want to do 
anything we can to incentivize, give them dignity, give them 
benefits, make them feel good that they have a job that they 
can go to, and most importantly, create continuity and 
consistency, because when you have a high turnover of upwards 
of 125 percent, your people may be trained one day. The next 
day, they are gone to a new job and you have the next guy in.
    So I think creating standards and best practices that we 
can implement and execute and making it attractive as an 
industry would be very helpful. I think that is starting to 
happen. It hasn't fully been executed yet here in the United 
States. It all started with the cleaners. It is sort of ironic. 
You have a security guard making $8 an hour and he is the front 
teeth of a $1 billion asset, and the guy pushing the broom can 
walk into a union, make $20 an hour, and speak no English and 
really, I think, it sets a different tone. That is why you have 
such a high turnover. So I think we need to somehow continue to 
push that if we are going to secure these soft targets.
    Chairman Lieberman. Yes, I agree. It is a few years since I 
have heard this, but at one point in the last 2 or 3 years, 
security guards were the fastest-growing job sector in our 
economy, but that doesn't mean that they were getting paid well 
or that they were well trained. We know that some of the 
private companies do very well at this. Others do not. And we 
have actually done some work, including legislative work, on 
this.
    Let me, in the few minutes I have left on this round, go to 
Dr. Tellis and ask you to respond to this. Mr. Jenkins said, I 
think, something to me that seems quite right, which was that 
in many senses, but in one particular sense I want to ask you 
about, Mumbai was for India what September 11, 2001, was for 
the United States. And in the one sense I am talking about, for 
us, obviously, it revealed the stovepiped Federal agencies, 
State and local, were unable to connect the dots. I think one 
of the most significant things we have done after that was to 
create the organized, coordinated Director of National 
Intelligence and particularly the unsung but very critical 
National Counterterrorism Center (NCTC).
    In your testimony, you talked about these attacks offering 
us an opportunity for improved cooperation with India on 
counterterrorism, including intelligence sharing and law 
enforcement training. I wonder if you would speak in a little 
more detail about and also indicate whether you think the first 
round of Indian legislative response, which has occurred, will 
deal with this stovepipe problem and will make it more likely 
that the dots will be connected if there is a next time.
    Mr. Tellis. Let me address the last question first.
    Chairman Lieberman. Go ahead.
    Mr. Tellis. I think the legislative response that they have 
engaged in has been quite inadequate because what in effect 
they have done is they have created a new investigative agency 
to deal with the problems after they have occurred.
    Chairman Lieberman. Yes.
    Mr. Tellis. It is an investigative agency that essentially 
will bring perpetrators to justice. Now, that is important, but 
it doesn't help them solve problems in terms of prevention. 
They still have to create something like the equivalent of the 
NCTC. They haven't done that yet. They are struggling with the 
issues of classification that Mr. Jenkins mentioned, because 
traditionally, the information that they got has been primarily 
through technical intercepts which are shared by a very small 
group of people. They have not had a system where this 
information is rapidly disseminated to law enforcement and to 
those elements on the front line.
    And so the big challenge for them is fusion. How do you 
fuse the information coming from diverse sources, different 
organizations, maybe even different levels of classification, 
and getting it to the people who actually need to have it? This 
is where I think we really can make a difference, bringing them 
to the United States, really giving them the tour, having them 
intern in institutions like NCTC so that they get a feel for 
how we do it. Now, obviously the submission can't be replicated 
in exactly the same way, but the basic principle of fusing 
information coming from different sources and making it 
available to people who need it, I think, is something that 
they still have a lot of work to do.
    Chairman Lieberman. That is a very helpful response. As you 
know, I visited New Delhi with Senator McCain about a week 
after Mumbai. We talked with Mr. Narayanan, the National 
Security Advisor, about what could we do to help. He said he 
had been in New York, I believe for the General Assembly of the 
U.N. last fall, and spent some time with Commissioner Kelly and 
went to one of our fusion centers, and that is good. But I 
think you have a very relevant idea, which is we ought to try 
to get some high-ranking Indian officials to come back and 
spend some time with the DNI and particularly at the National 
Counterterrorism Center because I agree with you. My impression 
from here has been that they have not done enough.
    And this is not easy. As we can tell you, these are 
entrenched bureaucracies all working for the national interest 
but really not wanting to share information. I will never 
forget the first trip that Senator Collins and I made out to 
the National Counterterrorism Center. The director took us 
around the floor, quite impressive, every agency there, real 
time, 24/7, with constant information sharing. He said, ``This 
gentleman at this desk is with the CIA. This lady at this desk 
is from the FBI. Note there is neither a wall nor a door 
between them.'' That was an advance. [Laughter.]
    Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. I remember that 
trip very well, too, and I do think it is making a real 
difference. While it is not discussed nearly as much as the 
other reforms of the September 11, 2001, bill, the intelligence 
reforms of 2004, I think it is one of the most important as far 
as making a difference, and it brings us back to the importance 
of information sharing.
    Dr. Tellis, you made a comment in your testimony about LeT 
having the capability to launch attacks in the United States, 
and you also referred to the fundraising and recruitment 
activities that LeT is conducting in our country. On the way to 
work this morning, I heard on NPR a report of a case that has 
troubled me where citizens of Somali descent are disappearing 
from Minnesota and there was concern, and it had been a 
classified concern but I heard it on the radio this morning, 
that there was a plot against our new President around 
inauguration that originated in Somalia.
    So we are seeing activity right here in the United States 
to recruit American citizens. Now, this makes sense if you 
think of the advantage of having an American who can travel 
freely, who isn't going to be under the kind of surveillance as 
someone who has to come into our country. But what we are 
finding, or what we are told is that in some cases, American 
citizens who have become radicalized are being recruited to go 
fight elsewhere, to conduct suicide missions overseas. Why 
would groups like LeT and other terrorist organizations go to 
the expense and trouble of recruiting Americans to die in an 
operation overseas?
    Mr. Tellis. I think it is ideological. I mean, there is a 
vision that there is a global struggle against the United 
States and if you can find people from outside to conduct the 
struggle and if the foot soldiers are entirely from the 
outside, then it becomes an ``us versus them'' problem. It 
breaks down across national lines. It is the United States 
versus the rest, or others versus the United States.
    If you can get people from the United States to join this 
movement, then essentially what you have done is you have 
exploited corrosion from within, and this is really part of the 
vision. The vision that LeT has in particular is that the West 
is decadent, that the West is immoral, that it will crumble. It 
needs to be assisted in the process of doing so. And so I see 
this as being part and parcel of this very corrosive vision 
that takes them wherever they can go.
    In fact, the fascinating thing about LeT, and we noticed 
this actually in the early 1990s, way before global terrorism 
was on anyone's agenda, was that LeT had moved out of the 
subcontinent in a very big way. We noticed their presence in 
West Africa, fundraising. We had noticed their presence in 
Europe. These are not places that you would think of in the 
1990s as being ripe for terrorist activity, but LeT saw 
opportunities and they were there.
    And so the important thing about this group is that they 
are extremely opportunistic. They are extremely adaptable. And 
the point that Mr. Jenkins made earlier, their vision is 
utilizing the best of modern science and technology for their 
ideological ends.
    Senator Collins. It also struck me when you were talking 
about not only their capabilities, but their ability to form 
alliances with other terrorist groups, and that is very 
threatening, as well.
    I would wager that if you surveyed 10 Americans on the 
street, every one of them would have heard of al-Qaeda. I bet 
you not a one of them knows about the threat from LeT, and 
part, I believe, of our mission is to try to raise public 
awareness that the threat is not just from al-Qaeda, but from 
like-minded terrorist groups, and also--and we have done a lot 
of work on this--from groups or individuals who are inspired by 
the extremist Islamist ideology but aren't linked to any of 
these groups. That is where we get the homegrown terrorists, 
and we have seen evidence of that kind of radicalization in our 
prisons, for example. So this is an area where I think we need 
to do a lot more work.
    I want to ask our two private sector witnesses, you have 
talked about the need for information sharing, but what about 
training? Do you think DHS could be helpful to you in that 
area? I noticed that the FBI and the DHS, and I don't know 
whether you have seen this, but they have come up with a 
private sector advisory that has a checklist on how to detect 
potential terrorist surveillance and what you should do, 
everything from identifying locations that the terrorists must 
occupy to view security or to identify vulnerabilities. It 
states that many terrorists lack the training to conduct 
skillful surveillance and they will make mistakes, which can be 
how you can catch them.
    Are you familiar with these efforts by DHS? I am trying to 
assess how helpful DHS is to you.
    Mr. Norton. I am familiar with that, and I think I talked 
to your staff a couple of weeks ago about this. Something that 
was very helpful to us was working with the Red Cross in New 
York--last year, actually--where we had Red Cross Awareness 
Day. They set up booths in our buildings and they gave away 
kits to our employees and the tenants of the buildings, 
everything from a flashlight, to a bottle of water, to a 
blanket. They get on the train every day and don't think, this 
could break down, we could get attacked, we might be stuck here 
for a long period of time, we take that for granted. But now we 
are trying to make people more aware and be safer.
    We gave them home plans, things that they can do at their 
own homes to be prepared in the event that they have to shelter 
in place at their house for a period of time. So how do you 
lock down, make a fire emergency plan, have water and food, and 
keep your children safe.
    I think it was a great tool. We got tremendous feedback 
from the tenants and it is keeping New York safe and it is a 
program that we are going to take to the next level and roll it 
out into our other markets.
    Senator Collins. Thank you. Mr. Orlob.
    Mr. Orlob. I think that is a good tool. What we have to 
look at is we need to develop something specific to the hotel 
industry, and I talked about earlier, we even have to make it 
specific to what they do in the hotel. The housekeeper is going 
to be looking at something different than a bellman, for 
instance. So that is what we have tried to do, is take this 
information and then make it specific to what they do in the 
hotel.
    The other challenge we had as we started developing this is 
we have a lot of people who speak a lot of different languages. 
Not all of them speak English. So we tried to make something 
with as many pictures as possible so that they could visualize 
it rather than read it.
    My original concept as we developed this was to come up 
with a booklet that people could look at, and then we started 
talking about the different languages and the challenge of 
doing that and that is when we decided we needed to shift to 
another way of educating them and making them aware and we 
started putting these posters together, again, with a lot of 
pictures that they could look at because we operate in so many 
countries around the world and not everyone speaks English. 
Sometimes we think a little U.S.-centric at times and we need 
to kind of get out of that mindset and think around the world.
    We have a lot of American citizens staying in our hotels, 
too. So we have a real challenge there to make sure that all 
our hotels are safe to take care of everyone staying there.
    Senator Collins. That is a challenge, and I appreciate both 
of you sharing your expertise with us.
    My final question is for Mr. Jenkins, if I may.
    Chairman Lieberman. Please.
    Senator Collins. I am thrilled to have your book because 
the Chairman initiated hearings last year on the threat of 
nuclear terrorism and we have done a lot of work. I realize you 
can't sum up your entire book in 2 minutes, but I am going to 
ask you to try, nevertheless, to answer the question you posed 
on the cover, ``Will terrorists go nuclear?'' Not that I am not 
going to read the entire book, I hasten to say. [Laughter.]
    But given the work that you have done, I know it is a 
little bit off our hearing topic today, I thought I would take 
advantage of your being here.
    Mr. Jenkins. Senator, unfortunately, I am not nationally 
recognized in the field of prophecy, so I am not able to offer 
probabilistic statements about the likelihood of terrorists 
going nuclear. I think there have been some exaggerated 
statements indicating that it is not a matter of if, but when, 
or it is going to happen within 5 years in this country. I am 
not quite sure how to judge those because as I say, I have no 
basis for making probabilistic statements.
    I think it is a frightening real possibility. Whether or 
not I can make a prediction is not important. I will regard 
myself as a prudent agnostic and say that it is of sufficient 
concern that I want to see us taking all of the necessary steps 
to prevent it from occurring, and that includes those efforts 
that already have been taken to ensure the security of nuclear 
weapons worldwide--our own arsenal, the Russian arsenal, and 
others--and of highly enriched uranium (HEU), both in military 
programs--leftover HEU from the decommissioning of weapons--and 
HEU that is available in civilian research reactors.
    I think we have to do more to discourage the development of 
a potential nuclear black market. That means sting operations. 
No one should have the certainty, whether a potential buyer or 
a potential seller, that their seller or buyer is not an 
intelligence agent or a law enforcement official, and I think 
we can do a lot more in that area.
    I think we also have to think about the frightening 
possibility of, heaven forbid, an event occuring in this 
country. How would we respond to that nationally? What 
decisions would we confront? That is the kind of thing we do in 
games that are conducted in the Pentagon and elsewhere.
    A final point is, I do think we have to make a distinction 
between nuclear terrorism and nuclear terror. Nuclear terrorism 
is about the frightening possibility that terrorists may 
acquire and use nuclear weapons. Nuclear terror is about our 
apprehension of that event. Nuclear terrorism is about 
intelligence, assessments, capabilities. Nuclear terror is 
driven by our imagination.
    We have to be very careful that we don't allow our 
terrorist adversaries to take advantage of our understandable 
anxieties and exploit those to crank up a level of nuclear 
terror even without possessing on their part any nuclear 
capability. And at the same time, we have to make sure that we 
as a society are psychologically prepared for that event. It 
would be a horrific human tragedy, but it would not be the 
world-ending event of a full nuclear exchange such as existed 
during the Cold War. We would survive, but we want to make sure 
that we survive as a functioning democracy and not commit 
suicide ourselves in the wake of a terrorist attack.
    That is the best I can do in a couple of minutes.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Well, you have certainly aroused my 
interest in reading your book. [Laughter.]
    Thanks. Senator Bennet.
    Senator Bennet. I don't have any other questions, Mr. 
Chairman. Thank you.
    Chairman Lieberman. Thanks, Senator Bennet.
    I am just going to ask one more question while I have the 
four of you here. Senator Collins in her opening statement, and 
then you, Mr. Jenkins, in your statement, mentioned the problem 
of rail and transit security. This is something that has 
unsettled this Committee for some period of time. We have 
really done very well at improving our commercial aviation 
security at this point. I know it is different and difficult to 
deal with rail and transit, but when you see what happened in 
Mumbai and, of course, Mumbai earlier with the trains, and then 
London and Madrid, you have got to worry about it.
    I know we are doing some things now. We have more dogs on. 
We have more personnel, more police on various rail and 
transit. I think the number is something like more than 14 
million people ride mass transit every day in America. And the 
conventional answer is, well, you can't do what we do with 
planes because people wouldn't use the subways and the trains 
anymore if you forced them to go through security.
    I just wonder whether any of you have any, both from the 
public think tank, private sector point of view, any ideas, 
because this is going to continue to be a focus of this 
Committee. What more can we do to improve security on non-
aviation transportation in the United States?
    Mr. Jenkins. One of the answers is controversial. You are 
correct: We can't go to the aviation model of 100 percent 
passenger screening. That is probably not realistic. We can 
go--and Amtrak has done so, Washington Metro has done so, New 
York has done so, and a couple of other places have done so--to 
selective screening.
    Chairman Lieberman. Right.
    Mr. Jenkins. Now, that doesn't mean screening on the basis 
of racial or ethnic profiling. That would be inappropriate, as 
well as stupid security. But certainly we can do more with 
selective screening and putting into place the platforms for 
programs that can be rapidly expanded if threat conditions 
warrant expanding them.
    There are some capital investments that probably we can 
make to take advantage of some of the technologies both in 
camera surveillance and in explosive detection. DHS is doing 
some terrific work on improvised explosive devices, but there 
the challenge is working out as, our capabilities of improving 
our detection of explosives improve, the operational and policy 
issues that come up.
    If, for example, we can remotely detect the suspected 
possession of explosives by one individual in a crowd of 
people, we have that information, now how do we respond? Do we 
say, ``You are a suicide bomber,'' and then what? How do we 
handle that? So there are a lot of operational and policy 
things that we need to work on.
    I am mindful of the most recent Department of Homeland 
Security report card, in effect. This is the first time the 
Department looked at the preparedness of surface transportation 
for response, and this was a set of criteria. I forget the 
exact statistics, but fewer than half of the entities that were 
surveyed made it to the standards required. Hopefully, that 
report card will become an incentive for people to do things 
that don't require major capital investments, but things like 
tabletop exercises, crisis management plans----
    Chairman Lieberman. Right.
    Mr. Jenkins [continuing]. And liaison with local police. A 
lot of things that we saw didn't work in Mumbai, we won't 
replicate those errors here.
    Chairman Lieberman. That is helpful. Do any of the other 
three of you have anything you want to add about rail and 
transit? I know it is not particularly in your area. I thank 
you.
    I want to just say this. Senator Collins, do you have 
another question?
    Senator Collins. I don't.
    Chairman Lieberman. Senator Collins was talking about how 
people in the United States don't know about Lashkar-e-Taiba. 
She is absolutely right. We are all focused on al-Qaeda because 
of September 11, 2001. I do want to say my own impression is, 
based on my service on this Committee and on the Armed Services 
Committee, that we have actually done serious damage to al-
Qaeda in various ways. But I don't mean they are done, and this 
is a war in which a few people with no concern about their own 
life or anybody else's could do terrible damage. But they are, 
I would really say, in retreat. I mean, that is that they are 
weakened.
    But the threat goes on, and here you have another group 
showing both a willingness and a capability to really not only 
kill a lot of people in Mumbai, but engage the attention of the 
world, which is a great strategic role. So this is going to be 
a long war, although we are learning as we go on and we are 
getting better at both preventing and responding, and I think 
the four of you have really helped us today in a very real way 
to dispatch our responsibility. We are now going to be working 
with the Department of Homeland Security to see the ways in 
which we can together apply the lessons of Mumbai, and I thank 
you very much for what you have done to help us do that today.
    Do you have anything you would like to say?
    Senator Collins. I don't. Thank you.
    Chairman Lieberman. The record of this hearing will be kept 
open for 15 days in case any of you want to add anything to 
your testimony or any of the Members of the Committee want to 
ask you questions for the record.
    But I thank you very much, and with that, I will adjourn 
the hearing.
    [Whereupon, at 12 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
